<html>
<title> - DEPARTMENT OF HOMELAND SECURITY'S INFORMATION ANALYSIS AND INFRASTRUCTURE PROTECTION BUDGET PROPOSAL FOR FISCAL YEAR 2005</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                   DEPARTMENT OF HOMELAND SECURITY'S
                INFORMATION ANALYSIS AND INFRASTRUCTURE
                     PROTECTION BUDGET PROPOSAL FOR
                            FISCAL YEAR 2005

=======================================================================

                             JOINT HEARING

                                 of the

                    SUBCOMMITTEE ON INTELLIGENCE AND
                            COUNTERTERRORISM

                                  and

                     SUBCOMMITTEE ON INFRASTRUCTURE
                          AND BORDER SECURITY

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2004

                               __________

                           Serial No. 108-39

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________




                 U.S. GOVERNMENT PRINTING OFFICE

22-589                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                 SELECT COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)
?



           Subcommittee on Intelligence and Counterterrorism

                     Jim Gibbons, Nevada, Chairman

John Sweeney, New York, Vice         Karen McCarthy, Missouri
Chairman                             Edward J. Markey, Massachusetts
Jennifer Dunn, Washington            Norman D. Dicks, Washington
C.W. Bill Young, Florida             Barney Frank, Massachusetts
Harold Rogers, Kentucky              Jane Harman, California
Christopher Shays, Connecticut       Nita M. Lowey, New York
Lamar Smith, Texas                   Robert E. Andrews, New Jersey
Porter Goss, Florida                 Eleanor Holmes Norton, District of 
Peter King, New York                 Columbia
John Linder, Georgia                 James R. Langevin, Rhode Island
John Shadegg, Arizona                Kendrick B. Meek, Florida
Mac Thornberry, Texas                Jim Turner, Texas, Ex Officio
Christopher Cox, California, Ex 
Officio

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California
Jennifer Dunn, Washington            Edward J. Markey, Massachusetts
Don Young, Alaska                    Norman D. Dicks, Washington
Duncan Hunter, California            Barney Frank, Massachusetts
Lamar Smith, Texas                   Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Louise McIntosh Slaughter, New 
Robert W. Goodlatte, Virginia        York
Ernest Istook, Oklahoma              Peter A. DeFazio, Oregon
John Shadegg, Arizona                Sheila Jackson-Lee, Texas
Mark Souder, Indiana                 Bill Pascrell, Jr., New Jersey
John Sweeney, New York               Charles Gonzalez, Texas
Christopher Cox, California, Ex      Jim Turner, Texas, Ex Officio
Officio

                                 (III)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security............................................    32
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Infrastructure and Border Security.............................     4
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada, and Chairman, Subcommittee on Intelligence and 
  Counterrorism..................................................     1
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri, Ranking Member, Subcommittee on 
  Intelligence and Counterrorism.................................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the
  State of California, and Chairman, Select Committee on Homeland
  Security.......................................................    26
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................     6
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    35
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    45
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    61
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Prepared Statement.............................................     8
The Honorable John Shadegg, a Representative in Congress From the 
  State of Arizona...............................................    37
The Honorable Christopher Shays, a Representative in Congress 
  From the State Connecticut.....................................    32
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of New York............................     8
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York..........................................    44

                                WITNESS

General Libutti, Under Secretary, Information Analysis and 
  Infrastructure Proection, Department of Homeland Security
  Oral Statement.................................................    10
  Prepared Statement.............................................    13

                                APPENDIX
                   Material Submitted for the Record

Questions Submitted from the Honorable James R. Langevin.........    61
Questions Submitted from the Honorable Sheila Jackson-Lee........    56
Questions Submitted from the Honorable John Shadegg..............    49
Questions Submitted from the Hororable Mac Thornberry............    50


                       THE DEPARTMENT OF HOMELAND



                 SECURITY'S INFORMATION ANALYSIS AND



                    INFRASTRUCTURE PROTECTION BUDGET



                     PROPOSAL FOR FISCAL YEAR 2005

                              ----------                              


                        Thursday, March 4, 2004

                          House of Representatives,
                       Subcommittee on Intelligence
                              and Counterterrorism,
                                                and
                             Subcommittee on Infrastructure
                                       and Border Security,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The joint subcommittee met, pursuant to call, at 10:00 
a.m., in Room 2318, Rayburn House Office Building, Hon. Jim 
Gibbons presiding.
    Present: Representatives Gibbons, Camp, Shays, Shadegg, 
Sweeney, Cox (Ex Officio), McCarthy, Sanchez, Markey, Dicks, 
Slaughter, Andrews, Pascrell, Langevin and Turner (Ex Officio).
    Mr. Gibbons. I see that a quorum is present. The 
Subcommittee on Intelligence and Counterterrorism and the 
Subcommittee on Infrastructure and Border Security will come to 
order.
    The subcommittees are meeting jointly today to hear 
testimony on the Department of Homeland Security's proposed 
fiscal year 2005 budget for information analysis and 
infrastructure protection. Let me indicate that I will be 
chairing the first part of this hearing and that Chairman Dave 
Camp will be chairing the second half after he wraps up some 
other additional important work that he has over at the Ways 
and Means Committee.
    I would ask unanimous consent that members' statements be 
included in the hearing record and encourage members of the 
subcommittees to submit their opening statements for the 
record.
    I now recognize myself for an opening statement.
    Under Secretary Libutti, thank you for being here today. I 
would like to start by commending you on your hard work and 
dedication to protecting our homeland and preserving our 
freedoms. You have had and continue to have a difficult and 
complex task.
    Today's hearing is part of a series focusing on various 
aspects of the Department of Homeland Security's budget 
submission for fiscal year 2005. Today we are here to, first, 
review the 2005 budget plans for the IAIP or Information 
Analysis and Infrastructure Protection; second, to ensure that 
the Department is making optimal progress and fulfilling its 
responsibilities under the Homeland
Security Act and; finally, to examine the directorate's 
concurrent initiatives and future plans.
    The Information Analysis and Infrastructure Protection 
piece of the budget accounts for $864 million of the 
Department's $33.8 billion budget. This represents an increase 
of $30.2 million over the fiscal 2004 budget enacted levels.
    One of the principal objectives behind the Department of 
Homeland Security is to facilitate the analysis of threats 
against the homeland and for future acts of terrorism; and IAIP 
is the very core of this capability. The IAIP Directorate is 
charged with identifying and assessing current and future 
threats to the homeland, mapping those threats against our 
vulnerabilities, issuing timely warnings and taking action to 
protect the U.S. homeland. This is a long-term project with 
long-term implications for America's security.
    While the Department is continuing to focus on our long-
term needs, the Terrorist Threat Integration Center is working 
with the Department to compile all-source intelligence and 
distribute information in a timely manner. The Department of 
Homeland Security must be a full partner in this endeavor, and 
I know we are all interested in hearing how your relationship 
with TTIC is progressing.
    As part of your opening statement, I appreciate it if you 
would speak to the relationship with TTIC along with how the 
recently announced Homeland Security Information Network will 
interact with TTIC and the Homeland Security Operations Center.
    It is important, as we conduct our oversight 
responsibilities over the Department that Congress continues to 
provide you with the resources and legal authorization you need 
to secure and defend America, and that is why we are here 
today. I look forward to hearing your comments.
    The chairman will now recognize the ranking member of the 
Subcommittee on Intelligence and Counterterrorism, Ms. McCarthy 
of Missouri, for her opening statement. Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman; and I would request 
that members who arrive before Mr. Libutti begins his testimony 
be able to speak.
    Mr. Gibbons. The chairman sees no problem with that, so 
long as they recognize that the committee's standards are that 
they have opportunity for an opening statement, which if they 
don't present an opening statement that time will be included 
in their time for questioning.
    Ms. McCarthy. Yes, sir. I appreciate that, Mr. Chairman. I 
thank you, and I thank the Secretary.
    We are pleased that you are here, and we are anxious for 
you to take us through the $865 million budget submission for 
Information Analysis and Infrastructure Protection Directorate. 
As ranking member, Jim Turner, has noticed in recent 
statements, the Directorate's real-time ability to assess 
threats to the homeland and identify existing vulnerabilities 
in our infrastructure is an area we would like you to speak to 
this morning.
    We are interested in hearing about ongoing efforts to 
improve the depth and breadth of intelligence analysis at the 
Directorate as well as the connectivity among all key units 
across government doing similar analysis.
    Where are the existing gaps and weaknesses? What can our 
committee do to help your leadership solve these problems 
rapidly in authorizing legislation that we expect to pass and 
enact later this year? And what is the time frame within the 
coming fiscal year for showing results?
    Hopefully, you will cover all of this ground this morning.
    Mr. Secretary, it would also be my hope that you cast light 
on what is being done to speed the issuing of information 
warnings and advisories to State and local officials and to 
improve the quality of those communications so that businesses, 
schools, churches and families across America have the best 
guidance in hand from the Federal Government when the threat 
level rises.
    Secretary Ridge's announcement last week of a new 
initiative, the Homeland Security Information Network, hits us 
in the right direction by creating a comprehensive, computer-
based counterterrorism communication system in all the 50 
States and the 50 major urban areas.
    The Department has the right idea to strengthen the quality 
and flow of threat information, and now we have to assure that 
that is sufficient and that there is follow-through.
    If there is one universality from constituent groups that I 
hear from, it is the need for the DHS to provide timely and 
actionable information sharing between Federal agencies and 
State and local agencies. They look to the Department for 
reliable and accurate information concerning terrorist threats 
in local communities all across our country.
    Tim Daniel, the Director of the State of Missouri Office of 
Homeland Security, tells me that information sharing needs to 
go both ways. When Missouri State and local officials have 
information concerning possible terrorist activities, they need 
to know not only who to contact at the Federal level but also 
that their State information will be considered in a timely 
way.
    The feedback loop is still under construction, and I would 
welcome your wisdom, Mr. Secretary, on how best to complete 
this loop.
    Since we are primarily focused today on dissecting the 
budget, it would be helpful to have a clear understanding of 
how many dollars are dedicated toward information sharing with 
localities and communities. The Homeland Security Operations 
Center is receiving a big plus up of funds, $10 million, in 
part to undergird the implementation of national systems for 
information sharing, and I would appreciate you sharing with 
this committee a Directorate-wide breakdown of how funds are 
actually expended for information sharing purposes.
    It would also be useful to hear a broader explanation of 
where and how time is lost in the process of forwarding 
important real-time intelligence threat information to first 
responders. The first responders in the Fifth District of 
Missouri and all around the U.S. need timely and actionable 
information from the Federal Government.
    Mr. Secretary, share your plans on enhancing communication 
at all levels and working to provide our local communities with 
the resources they need to respond in emergency situations. I 
hope you will provide more information on this topic so the 
committee has a better sense of how to fix this nationwide 
dilemma.
    A separate policy matter slow to develop involves IAIP 
information analysis and completing that comprehensive threat 
and vulnerability assessment and to guide spending priorities. 
In releasing our one-year anniversary report last week, the 
committee emphasized the need to have this blueprint in place, 
regardless of the cost, by October 1 of this year; and I would 
simply like to reiterate that point with you, our distinguished 
panelist. How realistic is that goal, Mr. Secretary?
    Let me close by emphasizing the deep appreciation I have 
for the work you are doing, Mr. Secretary. Protecting the 
homeland is a mammoth responsibility, given the many different 
avenues that exist for attacking our infrastructure, but we are 
supportive of your intentions, efforts and long-term goals and 
will continue as a good-faith partner in helping you close the 
security gaps facing our Nation and communities.
    Thank you, Mr. Chairman, I yield back.
    Mr. Gibbons. Thank you, Ms. McCarthy.
    The Chair recognizes once again that the chairman of the 
Subcommittee on Infrastructure and Border Security will submit 
his opening remarks for the record.
    Mr. Gibbons. We would now turn to the ranking minority 
member of the Subcommittee on Infrastructure and Border 
Security, Ms. Sanchez of California, for her opening remarks.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for appearing before us today.
    Because of the broad scope of the IAIP Directorate, I am 
pleased that both the members of the Intelligence and 
Counterterrorism and the Infrastructure and Border Security 
Subcommittees are here today. You probably have one of the most 
difficult charges in the whole area of homeland security, but a 
lot of us don't have a very good idea of how you are structured 
and what is going on and what you are really doing, and I think 
that is one of the reasons why you are here before us today, 
because we are trying to find some answers.
    To date, we still don't have a comprehensive study of the 
Nation's critical infrastructure to determine where our 
weaknesses lie, and I think that only after such an assessment 
can we really, as Members of Congress, decide how to put 
priorities forward and where to put the resources that we need 
so that we can ensure that chemical plants and electrical grids 
and water treatment plants and all our other critical 
infrastructure is protected.
    You can imagine how disappointed I am to see in the budget 
there are only two areas in your Directorate that experience a 
cut in funding this year, and that would be the threat--from 
the levels of last year, and that would be threat determination 
and assessment of $6.3 million and infrastructure vulnerability 
and risk assessment, $12.6 million. Yet, at the same time, the 
Homeland Security Department says that it will have a database 
with a prioritized list of critical infrastructure by the end 
of this year.
    The last time that I spoke with Robert Liscouski, the 
Assistant Secretary For Infrastructure Protection who works for 
you, he told me that he would be surprised if a risk assessment 
could be done within 5 years. That is what he said in front of 
our subcommittee. That time I and other members of the 
subcommittee impressed upon him the seriousness and the 
importance of the endeavor, because I do believe that it is 
really the beginning of what we need in order for us to do our 
job to commit--and I told him to please commit resources and 
personnel to get that going.
    That was last autumn. I would like to hear from you what 
work is being done on that important issue, and I don't think 
that we can make correct decisions until we get that done.
    It is probably the most important thing you have to do 
within your Directorate. So, if you are cutting those, do I 
assume that you don't think it is important? Or do I assume 
that you think you have enough resources? And if you think you 
have enough resources, then why over the last year have I been 
told, oh, it would take 180 days? Oh, what is the start date? 
We don't know the start date. And then 180 days later I was 
told, well, it will take--don't even think 5 years will do it. 
I mean, this is something that I know so many members feel very 
uncomfortable not having that list of priorities and risks and 
vulnerability tied into that. So I want to hear from you what 
is going on with that.
    I would also like to hear what kind of capacity and 
expertise you are building within the Department to assess and 
protect that critical infrastructure. Who have you hired? Where 
are they from? What kind of employees are they? Because we 
really don't know. Are they expert? Are they experts in 
chemical plants, in electrical grids? I also want to hear how 
you are working with industry. Because, of course, we all know 
that probably a little--somewhat over 80 percent of all the 
critical infrastructure sits in private companies' hands.
    I know that you have been sharing with advisory councils 
and with ISACs, and I know that some of this has been going on 
even before 9/11, but I want to find out which ones are going 
well and where we need to help those that are falling behind.
    I would also like to know how you work with the ISACs. Do 
you have people within IAIP responsible for liaison with those 
groups? Do you give them support and advice? Do you share 
information? How is information given between the two?
    Finally, probably another area of concern that we have is 
the whole issue of intelligence capabilities. There seems to 
still be little intelligence capability within DHS, and I know 
there are some other members that are going to focus on that, 
so I don't want to go into it.
    Like I said, you probably have the toughest job, in my 
opinion. I know, because I sit on this subcommittee and I think 
I have one of the toughest jobs trying to get my hands around 
all of this.
    So, as I said, we are trying to figure out how you are set 
up, who is doing what, how you are working with other groups. 
So I thank you for being before us. I think we are going to ask 
some tough questions, but, if we do, it is because we are 
trying to get the job done.
    Thank you.
    Mr. Gibbons. Thank you, Ms. Sanchez.
    We will now turn to members that are present here before 
Secretary Libutti begins and offer them an opportunity in order 
of appearance on the committee for a 3-minute opening 
statement.
    We will turn to Mr. Shays.
    Mr. Shays. I will take my 8 minutes, sir, for questioning.
    Mr. Gibbons. We will go to Mr. Turner of Texas.
    Mr. Turner. Thank you, Mr. Chairman.
    Welcome, General Libutti. We are pleased to have you here, 
your first appearance before our committee; and I was pleased 
to have the opportunity to visit with you in your office 
several weeks ago. We certainly appreciate the enormity of the 
task that you have undertaken and the diligence with which you 
are pursuing the task at hand.
    I know we all understand that we created the Department of 
Homeland Security as a focal point for intelligence analysis so 
we could do a better job of what we always referred to as 
connecting the dots. Certainly, as we look back upon the 
legislation creating the Department, most of us remember the 
lengthy debate that occurred regarding the creation of what we 
now call the Information Analysis and Infrastructure Protection 
Directorate. Specifically, that debate involved what 
responsibility the new Department and that Directorate would 
have.
    It disturbed many of us on both sides of the aisle when the 
President decided that the key task of assembling, analyzing 
and assessing intelligence related to terrorism would be placed 
outside of the Department in a new entity called the Terrorist 
Threat Integration Center. That certainly led to confusion 
among many of us who have been very much committed from the 
beginning to ensuring that the new Department was the place 
where this integration process would occur.
    So I think it is important that some of your time today, 
General Libutti, be devoted to explaining to us what you 
believe to be the merits of the way the threat integration 
process has been set up as a so-called joint venture between 
The Department of Homeland Security and other agencies.
    We need to know whether the Directorate's intelligence-
related duties and responsibilities are still clearly defined 
and whether there is an effective, functional relationship with 
that new center and the other components of the intelligence 
community as well as with your Directorate.
    In addition to the intelligence analysis function, IAIP 
remains a critical part of the Department and a key component 
of our overall homeland security efforts. Among your duties are 
identifying and assessing threats, mapping those threats 
against vulnerabilities, issuing timely warnings, and serving 
as a conduit of information to and from State and local law 
enforcement.
    In my view, your Directorate could probably be called the 
nerve center of the Department of Homeland Security, and in 
many ways the success of your Directorate will determine the 
success of the entire Department and of the goals that the 
Congress had in mind when it created that Department.
    One of my key concerns, as expressed, and shared by 
Congresswoman Sanchez, is the progress toward developing this 
comprehensive threat and vulnerability assessment. Assistant 
Secretary Liscouski testified to this committee that that 
assessment could take up to 5 years. Finishing that task as 
soon as possible is critical, because right now we feel that we 
are driving the homeland security budget without a clear 
roadmap as to where our limited tax dollars should be spent.
    I hope, General, in your testimony today that you will help 
us by clearing up what has been confusing information from 
various sources about when we can expect the comprehensive, 
national threat and vulnerability assessment to be completed. 
If the date you give us is one that you are not satisfied with, 
advise us as to what we can do to help you to move that date up 
to an earlier point. If that involves additional funding, I 
hope you will be forthright with us and give us that 
information, because I think the Congress--in a bipartisan 
way--recognizes that when we created the new Department, 
merging 22 separate preexisting agencies, that the most 
important contribution that we tried to make to making our 
Nation more secure was not just in having a massive merger but 
in doing some things new that we had not done before. One of 
those on that list was comprehensive national threat and 
vulnerability assessment. I hope you will give us a date that 
we can expect the assessment that to be accomplished.
    I am also concerned about the progress in developing the 
Integrated Terrorist Watch List. That task, to me, is one of 
the most critical elements of our ability to keep terrorists 
out of this country. Because every activity, whether it is 
screening people at our airports or at our land borders or 
reviewing visas by the State Department, all of those 
activities to be effective have to have access real time to a 
comprehensive terrorist watch list.
    That task has not been completed. As you know, here we are 
two and a half years after September 11th; and that 
responsibility has been passed around to various agencies. It 
finally landed back with the FBI and with the Terrorist 
Screening Center.
    We continue to get different dates. At the beginning of 
this year, we were told that the task would be completed by 
March. That did not happen; and, in fact, according to the 
Department's strategic plan released last week, this task is 
not to be completed until the end of this year.
    I really think that this is unacceptable, and I really to 
not understand why we have had such a difficult task doing what 
I think is a very critical and key part of making this country 
safer.
    Last week one official at the Department even suggested in 
one publication I read that we may not really need to fully 
integrate the terrorist watch list, which completely baffled me 
in light of the fact that this has been a high priority for 
some time.
    Another issue that I want to mention is, despite the fact 
that there is an overall increase in your Directorate's budget 
as requested by the President, the request for the item called 
assessments and evaluations decreases in that budget request by 
$8 million compared with the current year. This I assume is due 
to the elimination of the Directorate's funding or share of 
funding to support the Terrorist Threat Integration Center and 
the Terrorist Screening Center, but I want you, if you will, 
General, to address this issue, because I worry that when we 
end the Department's financial contribution to the Terrorist 
Threat Integration Center we further distance the Department 
from that critical role and from a responsibility that clearly 
in the Department of Homeland Security Act was a responsibility 
given to the Department.
    There are other areas that I hope you will have the 
opportunity to touch upon regarding your progress in 
integrating your new hires and detailees into your work.
    I know for a period of time your staffing authorization has 
exceeded the number of staff that you have been able to hire, 
and I would like to know how you are progressing there.
    I would like to also know and have from you a candid 
assessment of how well the intelligence community is sharing 
information with you. I frankly believe that in this new era of 
trying to protect the homeland that we are still sharing 
classified intelligence as we did during the Cold War, and if 
you can't tell me today that there are at least four or five 
top folks in your Department, and you should be one of those, 
that knows everything that is available regarding threats to 
this country, I would say that we are still holding that 
information too tightly.
    I have been in briefings before, and I get the impression 
that, generally, Secretary Ridge is probably told everything, 
but I am not convinced that others in critical roles such as 
yours have total access to all of the classified informing that 
must be shared in order to be sure this country is secure. I 
would like to have your candid observations with us regarding 
that classified information sharing and whether or not you 
think that I am correct or incorrect with regard to that 
assessment.
    I think I speak for all of my colleagues today that we 
appreciate the good work you do and the progress you are 
making, and we want to support you to be sure that we all can 
accomplish the task that we know is so critical.
    Thank you.
    Mr. Gibbons. Thank you, Mr. Turner.
    We will now turn to members that were here within the 5-
minute time limit of the gavel for a 3-minute opening remark. 
Mr. Andrews of New Jersey.
    Mr. Andrews. Mr. Chairman, I will pass on the opening 
statement and reserve questions.
    Mr. Gibbons. Ms. Slaughter.
    Ms. Slaughter. I don't have an opening statement, Mr. 
Chairman. I will reserve for questions.
    Mr. Gibbons. Mr. Pascrell of New Jersey.
    Mr. Pascrell. I will reserve.

       Prepared Statement of The Honorable Sheila Jackson-Lee, a 
           Representative in Congress From the State of Texas

    Mr. Chairman, thank you for your diligence in organizing today's 
hearing to discuss and analyze the Fiscal Year 2005 Budget submission 
for the Directorate for Information Analysis and Infrastructure 
Protection (IAIP), as this portion of our Department of Homeland 
Security (DHS) is probably one of the most important to our ability to 
sustain ourselves in the event of a terrorist attack.
    Key to our ability to sustain ourselves in the event of a terrorist 
attack will be the effectiveness of our IAIP to pick up, interpret, 
analyze, share, and transmit intelligence information to the Department 
of Homeland Security (DHS) as a whole. Repeatedly, we have seen 
instances where there has been demonstrated a weakness in our critical 
infrastructure. The breakdown of the power grid system in areas such as 
the Great Lakes, Michigan, Ohio, New York City, Ontario, Quebec, 
Northern New Jersey, Massachusetts, and Connecticut during the blackout 
of August 14, 2003 is but one example of the need for DHS to do a 
better job of vulnerability assessment and evaluation. To date, we are 
not comfortable that this kind of situation won't occur again; yet the 
President's Fiscal Year 2005 Budget requests show an $8 million 
decrease from the current year level for the Assessment and Evaluations 
budget account. In addition, the request shows reduced funding for the 
Terrorist Threat Integration Center (TTIC) and the Terrorist Screening 
Center (TSC) totaling $19 million, which translates to a weakening of 
the Threat Determination/Assessment and Infrastructure Vulnerability & 
Risk Assessment resources that the Department will have.
    Furthermore, DHS is in dire need of improvements in the area of 
information-sharing. For example, according to a GAO report released 
two months ago, the Department of Homeland Security's Division of 
Customs and Border Patrol (CBP) does not have a national system for 
reporting and analyzing inspection statistics by risk category. Data 
from some ports are not available by risk level, not uniformly 
reported, difficult to interpret, and not complete. Furthermore, when 
GAO contacted ports to obtain these data, basic data on inspections 
were not readily available. All five ports that gave information on 
sources of data said they had extracted data from the national Port 
Tracking System. However, this system did not include information on 
the number of non-intrusive examinations or physical examinations 
conducted, according to risk category. Moreover, a CBP headquarters 
official stated that the data in the Port Tracking System are error 
prone, including some errors that result from double counting. One port 
official told us that the Port Tracking System was not suitable for 
extracting the examination information we had requested, so they had 
developed a local report to track and report statistics. A March 2003 
Treasury Department Inspector General Report found, among other things, 
that inspection results were not documented in a consistent manner 
among the ports and examination statistics did not accurately reflect 
inspection activities.
    In the area of bioterrorism and the need to maintain an effective 
system of information-sharing, Houston has made some progress in 
improving its readiness. Infectious disease specialists in Houston have 
formed a Communicable Disease Alert System (CDAS) to help public 
officials maintain a close eye on the numbers and types of illnesses 
that turn up in local clinics and emergency departments and to 
communicate this information to the public rapidly. The chain of 
information starts with pre-hospital providers such as emergency 
medical technicians, paramedics and school nurses who watch for 
suspicious syndromes or spikes in the occurrence of illnesses. Some 
hospitals and their emergency departments act as sentinels, reporting 
spikes in illnesses among patients seeking care at their facilities. 
Each week, Houston infectious disease specialists and infection control 
practitioners meet to discuss unusual cases of disease and trade notes 
about occurrences in their respective institutions. The city of Houston 
and Harris County rank high in their ability to spot unusual disease 
patterns.
    Threat assessment is key to our nation's ability to detect, 
withstand, and recover from a potential terrorist attack. Therefore, 
strong personnel in the technical analysis area of infrastructure 
protection should be a priority over policy development. It is 
problematic that, in the 2005 Budget request, the Administration seeks 
authorization for only 225 intelligence analysts compared to 487 
policy/program professional staff.
    The need to fund improved threat assessment programs and to hire 
technical analysts to aid individual states and local areas can be 
found in Houston's drinking water vulnerability. Two-thirds of the 
drinking water provided to Houston residents comes from the San Jacinto 
and Trinity Rivers. These rivers are very vulnerable to pathogen and 
pesticide pollution, among other things. Houston's ``Right-to-Know 
Report'' earned a grade of ``Poor'' for 2000 and ``Fair'' for 2001. 
This report included a need for more prominent placement of the 
mandatory special alert for people who are more vulnerable to 
particular contaminants. The 2000 report provided a prominent and 
incorrect description of arsenic's health threat, and both reports 
offered misleading information about Cryptosporidium, which has been 
found in Houston's source water. This is but a single illustration of 
the kind of threat and vulnerability assessment that is in dire need of 
help from DHS. Our distinguished panelist indicates in his testimony 
that the President, in his Fiscal Year 2005 Budget, requests $11 
million to fund a new biosurveillance initiative that purports to 
provide for ``real-time integration of biosurveillance data. I hope 
that the IAIP will suggest that part of these funds go to helping 
individual states to strengthen its threat assessment for bioterrorism.
    Our panelist today, DHS Under Secretary for the Information 
Analysis and Infrastructure Protection Section concluded his testimony 
that ``the fiscal year 2005 budget request provides the resources to 
enable the IAIP Directorate to manage and grow in its mission of 
securing the homeland.''Our need is urgent, so there really isn't a lot 
of time to allow for ``growing,'' unfortunately. The Budget requests 
that are presented to us today suggest that the Administration feels 
that we have time for ``growing.'' Because the threat is real and 
emergent, we do not have the luxury of time. Monies available for 
general purposes must be intelligently allocated to address specific 
and localized needs.
    Mr. Chairman and Ranking Member, I thank you again for your effort 
and leadership in giving this Subcommittee the opportunity to analyze 
and comment on this Budget.

    Mr. Gibbons. Very well. We now have before us Under 
Secretary Libutti. We look forward to your testimony. You are 
welcome before us today, and the floor is yours, Mr. Under 
Secretary.

  STATEMENT OF GENERAL LIBUTTI, UNDER SECRETARY, INFORMATION 
ANALYSIS AND INFRASTRUCTURE PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    General Libutti. Thank you, sir. Good morning, Chairman 
Gibbons, Representative McCarthy, Representative Sanchez, 
Representative Turner, distinguished members of the 
subcommittee. I am delighted to appear before you today to 
discuss the President's 2005 budget request for the Department 
of Homeland Security and my Directorate IAIP.
    I am going to pause in my written prep for my oral and say 
to you all with great respect and admiration--and I mean this 
very sincerely, dare I go any other direction--the questions 
that were in opening comments, if I had recorded all of them, 
would probably be sufficient to both give me an opportunity to 
share where we are going and also, candidly speaking, answer 
your questions. I am a bit new to this process, but I have 
taken a few notes, and I will come back to those, but I would 
graciously and respectfully ask for those who have made 
statements to come back at me with your questions so, in a very 
logical and concise format, I can respond accordingly. I would 
just ask with all due respect, sir, that we go that way.
    Let me continue with my opening statement, please.
    IAIP is the focal point for intelligence analysis, 
infrastructure protection operations and information sharing--
let me underscore information sharing-Within the Department. 
IAIP merges the capability to identify and assess a broad range 
of intelligence and information concerns which threaten the 
homeland. We map, as has been pointed out, that information 
against national vulnerabilities, our critical infrastructure, 
and we press on to protect the homeland.
    This week marks the first anniversary of the Department, 
and I would like to highlight for you some of the many 
accomplishments of IAIP.
    Since March, 2003, IAIP has launched the Homeland Security 
Information Network, which is an interactive, collaborative, 
web-based system which reaches our customer bases more than 
ever before; and I am talking about State and local authorities 
and down to police chiefs and the rest within the first 
responder task forces of our country.
    We have implemented the Homeland Security Presidential 
Directive 7, which addresses critical infrastructure, 
identification, prioritization and protection.
    Through the National Cyber Security Division, we have 
established the U.S. Computer Emergency Readiness Team, or US-
CERT, and launched the National Cyber Alert System only within 
the last few months, America's first coordinated cyber security 
system for identifying, analyzing, and prioritizing emerging 
vulnerabilities and threats. And I might add, as a sidebar, it 
is about making people aware of the situation regarding cyber 
threats to our Nation, both in the business side and the home 
user side as well.
    We have assumed responsibility over this last year for the 
Homeland Security Operations Center, which is indeed the 
heartbeat in terms of information sharing and situational 
awareness for the Department.
    We have formally executed the Protected Critical 
Infrastructure Information program, or the PCII, pursuant to 
the provisions of the Critical Infrastructure Information Act 
of 2002.
    Now, even with these accomplishments, there is much work to 
be done, as many of you have highlighted in terms of your 
questions--and I include that so you understand I am on your 
frequency--staffing, categorizing our critical infrastructure 
and assets, ensuring private sector involvement in all that we 
do, particularly in terms of hardening critical infrastructure 
and putting protective measures in place, assuring the timely 
flow of threat information and protective measures to our 
customers across our great Nation.
    To address these challenges, IAIP has instituted an 
aggressive hiring plan that will bring on approximately 40 new 
employees a month. We have worked with our partners at the 
State and local levels to refine our list of critical 
infrastructure, and we have 1,700 assets identified for action 
in 2004.
    We are working with the private industry to help them not 
only understand their vulnerabilities but we are also providing 
recommended protective actions since, as was pointed out, they 
own about 85 percent and operate in support of 85 percent of 
the critical infrastructure of our Nation.
    Through the Homeland Security Operations Center and the 
Homeland Security Information Network, we have increased our 
ability to share information with State and local officials in 
the private sector in an unprecedented fashion, real time 
collaborative effort, a two-way street that all resides 
operationally within our command center.
    IAIP's budget relies on the expectation of two emerging 
trends, one, the nature and complexity of the threat, two, our 
national infrastructure components will become more complex and 
interdependent. These trends will result in more demands on the 
Department and on IAIP to anticipate terrorist intentions, 
tactics, capabilities and the responsibility to mitigate the 
risks and vulnerabilities and protect our country and our 
citizens.
    For these reasons, the President's 2005 budget request for 
IAIP is structured around the following major programs: threat 
determination and assessment, $22 million; infrastructure 
vulnerability and risk assessment, $71 million; information and 
warning advisories, $60 million; remediation and protective 
actions, $346 million; outreach and partnership, $41 million; 
national communications system, $140 million; competitive 
analysis and
evaluation, $19 million; national plans and strategies, $3 
million; and Homeland Security Operations Center, $35 million.
    Let me discuss several initiatives associated with these 
mission areas for the 2005 budget request of $864 million.
    This budget will allow IAIP to develop a detailed 
understanding of terrorist organizational capabilities with 
supporting materials and connectivity to interpret and predict 
threats.
    Next, our budget funds the development of a comprehensive 
national infrastructure risk analysis and profile program.
    Next, this funding supports submission of collection 
requests for threat information to the intelligence community 
and law enforcement establishments, disseminating guidance to 
homeland security components, developing analysis on the nature 
and scope of threats and identifying potential terrorist 
targets within the United States.
    Another priority is the need to publish threat advisories, 
bulletins and warnings at a different level of classification 
to relevant stakeholders. Threat publications are detailed and 
disseminated in a timely fashion, portraying the nature, scope 
and targets of the threat.
    The IAIP Directorate provides a broad range in services, 
including on-site planning advice, technical operational 
training programs, assistance in identifying vulnerabilities 
and developing and sharing best practices.
    Activities in this area also include security efforts to 
protect infrastructure and key assets from cyber attacks. 
Specifically, the $345.738 million for remediation and 
protective action programs for critical infrastructure and key 
asset identification; critical infrastructure vulnerability 
field assessments; infrastructure and key asset protection 
programs; protection standards and performance metrics; and 
cyberspace security funding to ensure the continued healthy 
function of cyberspace.
    The budget request allows the NCS to continue ensuring 
priority use of telecommunications services during times of 
national crisis, including the Government Emergency 
Telecommunications Service, or GETS. This funding also supports 
the development of the Wireless Priority Service, WPS, which 
provides a nationwide priority cellular service to key national 
security and emergency preparedness users, including 
individuals from Federal, State and local governments and the 
private sector.
    Through the competitive analysis and evaluation program, we 
ensure that IAIP products and services are tested, that they 
are accurate and they are based on sound assumptions and data.
    In summary, the 2005 budget request provide the resources 
to enable IAIP to manage and grow in its mission of securing 
the homeland. I come before you today to tell you that the 
progress that we have made has been solid; and there is 
absolutely no doubt in my mind that we, in terms of our efforts 
in support of defending the country, have made progress. While 
there is work to be done, we are safer today than we were a 
year ago, sir.
    Sir, again, I am delighted to be before you, Mr. Chairman, 
and I am ready to take questions at this time, sir.
    Mr. Gibbons. Thank you very much, Under Secretary Libutti, 
for your very timely and helpful and constructive comments that 
you have provided this committee. They will be very useful for 
us in our deliberations as well.
    [The statement of General Libutti follows:]

 Prepared Opening Statement of General Frank Libutti, Under Secretary 
 for Information Analysis and Infrastructure Protection, Department of 
                           Homeland Security

Introduction
    Good morning Chairman Gibbons, Representative McCarthy , Chairman 
Camp, Representative Sanchez and distinguished members of the 
Subcommittees. I am delighted to appear before you today to discuss the 
President's Fiscal Year 2005 budget request for the Department of 
Homeland Security's Information Analysis and Infrastructure Protection 
(IAIP) Directorate.
    IAIP is the focal point for intelligence analysis, infrastructure 
protection operations, and information sharing within the Department of 
Homeland Security (DHS). Within a single directorate, IAIP merges the 
capability to identify and assess a broad range of intelligence and 
information concerning threats to the homeland, map that information 
against the nation's vulnerabilities, issue timely and actionable 
warnings, and take appropriate preventive and protective action to 
protect our infrastructures and key assets. IAIP is currently comprised 
of three primary components: the Office of Information Analysis (IA), 
the Office of Infrastructure Protection (IP), and the Homeland Security 
Operations Center (HSOC).

Fiscal Year 2004 Accomplishments
    As we mark the first anniversary of the Department, I would like to 
highlight for you some of the many accomplishments of the IAIP 
Directorate, one of the newest parts of the federal government. The 
formation of IAIP has created for the first time a unique, integrated 
capability to not only map the current threat picture against the 
nation's vulnerabilities, but to also assess the risk of a terrorist 
attack based upon preventive and protective measures in place. That is, 
IAIP is enabling us to move from a reactive posture in the homeland to 
a risk management and mitigation posture. Let me give you some 
examples.
Since March, 2003, IAIP has:
        <bullet> Launched the Homeland Security Information Network 
        (HSIN), a comprehensive information sharing program that 
        expands access to and use of the Joint Regional Information 
        Exchange System (JRIES). The HSIN will provide secure real-time 
        connectivity in a collaborative environment with states, urban 
        areas, counties, tribal areas, and territories to collect and 
        disseminate information between federal, state, local, and 
        tribal agencies involved in combating terrorism.
        <bullet> Coordinated Operation Liberty Shield and the rapid 
        enhancement of security at more than 145 national asset sites 
        at the outset of the war in Iraq. Following that, IAIP 
        transitioned the protection of the sites from National Guard 
        and law enforcement to a more cost effective and permanent set 
        of physical protective measures.
        <bullet> Enhanced protection, by assisting local communities 
        with conducting vulnerability assessments and implementing 
        protective measures, of the nation' highest risk chemical 
        sites, thereby improving the safety of over 13 million 
        Americans.
        <bullet> Implemented Homeland Security Presidential Directive 
        (HSPD) 7, ``Critical Infrastructure Identification, 
        Prioritization and Protection,'' which was signed by President 
        Bush in December 2003. The HSPD assigned the Department of 
        Homeland Security responsibility for coordinating the overall 
        national effort to enhance the protection of the critical 
        infrastructure and key resources of the United States and the 
        development of an integrated cyber and physical protection 
        plan.
        <bullet> Implemented Wireless Priority Service, to ensure the 
        continuity of cellular networks nationwide, registering over 
        3,000 federal, state, local and private users.
        <bullet> Established the National Cyber Security Division 
        (NCSD) to coordinate the implementation of the National 
        Strategy to Secure Cyberspace and serve as the national focal 
        point for the public and private sectors on cybersecurity 
        issues, and developed a process for handling cyber incidents, 
        successfully managing a number of major cyber events.
        <bullet> Through the NCSD, established the U.S. Computer 
        Emergency Readiness Team (US-CERT) through an initial 
        partnership with the Computer Emergency Response Team 
        Coordination Center at Carnegie Mellon University. US-CERT is 
        building a cyber watch operation, launching a partnership 
        program to build situational awareness and cooperation, and 
        coordinating with U.S. Government agencies to predict, prevent, 
        and respond to cyber attacks.
        <bullet> Launched the National Cyber Alert System under the 
        auspices of US-CERT, America's first coordinated cyber security 
        system for identifying, analyzing, and prioritizing emerging 
        vulnerabilities and threats. This system provides the first 
        nationwide infrastructure for relaying actionable computer 
        security update and warning information to computer users in 
        the government, in private industry, and small business and 
        home users.
        <bullet> Assumed responsibility for the Homeland Security 
        Operations Center (HSOC), which maintains and shares real time 
        domestic situational awareness; coordinates security 
        operations; detects, prevents, and deters incidents; and 
        facilitates response and recovery for all critical incidents 
        and threats. As of February 2004, 26 federal and local law 
        enforcement agencies and Intelligence Community members are 
        were represented in the HSOC, providing reach back capability 
        into their home organizations to continuously inform the 
        current threat picture, and to provide key decision makers with 
        real time information.
        <bullet> Conducted detailed vulnerability studies of the 
        banking and telecommunications industry to better understand 
        the interdependencies and prioritize vulnerability reduction.
        <bullet> Initiated an intra-Department and interagency review 
        and analysis of information obtained in detainee briefings to 
        assess specific terrorist capabilities, work that subsequently 
        became the subject of several advisories disseminated to a 
        variety of homeland security partners regarding terrorist 
        planning, tactics and capabilities.
        <bullet> Co-chaired with the Border and Transportation Security 
        Directorate (BTS) the DHS Intelligence Activities Joint Study 
        charged with reviewing the mission, responsibilities and 
        resources of DHS Intelligence component organizations. The 
        study was chartered for the purpose of making recommendations 
        to the Secretary as to the optimal utilization of the 
        Department's analytical resources.
        <bullet> With the Homeland Security Council (HSC), initiated an 
        ongoing interagency review of the Homeland Security Advisory 
        System (HSAS), for the purpose of refining the system to make 
        it more efficient and more beneficial for states and localities 
        and the private sector.
        <bullet> Formally executed the Protected Critical 
        Infrastructure Information (PCII) implementing regulation, 
        pursuant to the provisions of the Critical Infrastructure 
        Information ACT of 2002. The purpose of the PCII Program is to 
        encourage private entities and others with knowledge about our 
        critical infrastructure to voluntarily submit confidential, 
        proprietary, and business sensitive critical infrastructure 
        information to the Department. Submitted information that 
        qualifies for protection under the provisions of the Act and 
        the PCII implementing regulation will be exempted from public 
        disclosure, providing a significant opportunity for private 
        entities to assist in homeland security without exposing 
        potentially sensitive and proprietary information to the 
        public. The Department will use information that qualifies for 
        protection primarily to assess our vulnerabilities, secure the 
        nation's critical infrastructure and protected systems, issue 
        warnings and advisories, and assist in recovery.

Fiscal Year 2005
    Even with these accomplishments, there is much more work that must 
be done. The United States remains at risk, despite the continuing work 
to assess and mitigate vulnerabilities. Our interdependent critical 
infrastructures enable Americans to enjoy one of the highest standards 
of living in the world, provide the backbone for the production of 
goods and services for the world's largest economy, provide over 60 
million jobs, and ensure the United States can protect its national 
security interests. Infrastructure will remain one of the top priority 
targets for terrorists desiring to damage the nation?s economy and 
incite fear in the minds of the American people.
    While the possibility of large-scale attacks similar to 9/11 remain 
significant, it is also possible likely that terrorists will employ 
smaller scale operations such as the suicide bombings prevalent in 
Israel. Terrorists understand that the cumulative effect of many small-
scale operations--that are easier to plan and conduct ? can be just as 
effective as large-scale attacks in their overall impact on Americans? 
sense of security in their own country and, especially, at United 
States facilities overseas.
    IAIP's budget relies on the expectation of two emerging trends: 
First, the nature and complexity of threats will increase; and, second, 
our national infrastructure components will become more complex and 
interdependent. These trends will result in more demands on the 
Department and IAIP to anticipate terrorist intentions, tactics and 
capabilities, and to mitigate risks and vulnerabilities for the 
protection of the United States and its citizens.
    For these reasons, the President's Fiscal Yyear 2005 budget request 
for IAIP is structured around the following major program areas: Threat 
Determination and Assessments, Infrastructure Vulnerabilities and Risk 
Assessments, Information Warnings and Advisories, Remediation and 
Protective Actions, Outreach and Partnerships, National Communications 
System, Competitive Analysis and Evaluations, National Plans and 
Strategies, and the Homeland Security Operations Center.

Threat Determination and Assessment ($21.943 Million)
    IAIP's Threat Determination and Assessment program is designed to 
detect and identify threats of terrorism against the United States 
homeland; assess the nature and scope of these terrorist threats; and 
understand terrorist threats in light of actual and potential 
vulnerabilities within critical infrastructures and/or key assets. 
Addressing these issues requires the IAIP Directorate to improve on its 
existing set of threat analysts and analytical tools by hiring and 
training additional highly skilled threat analysts; acquiring and 
fielding new analytical tools and technologies to assist in assessing 
and integrating information; and deploying secure communications 
channels that allow for the rapid exchange of information and 
dissemination of analytical results.
    These improvements will be used for multiple purposes, including: 
(1) providing analysis and assessments of the current threat picture as 
it relates to critical infrastructure; (2) developing actionable 
intelligence for Federal, state, and local law enforcement; (3) issuing 
warnings at all levels from the Federal Government to the private 
sector; and (4) supporting efforts to identify and coordinate effective 
countermeasures.
    The President's Budget requests $21.943 million for continued 
support of on-going activities to continually form terrorist threat 
situational awareness, execute the functions outlined above, and focus 
on information sharing and coordination within DHS as well as in the 
Intelligence Community and other external stakeholder communities. 
These capabilities enhance the performance of two critical functions in 
protecting the homeland. First, it offers the United States Government 
the ability to integrate, synchronize, and correlate unique sources of 
information relating to homeland security, emanating from traditional 
and non-traditional (e.g., state and local governments, private 
industry) sources. Second, the IAIP Directorate is positioned to 
integrate knowledge of potential terrorist threats with an 
understanding of exploitable infrastructure vulnerabilities, resulting 
in a value-added profile of national risk that transcends traditional 
threat and vulnerability assessments.
    Funding in this area is targeted to increase the IAIP Directorate?s 
technical competencies by training analysts and equipping IAIP with the 
most advanced technologies and tools. The training, tools and 
technologies will be utilized in four primary areas:
        <bullet> Model Terrorist Organization: Developing a detailed 
        understanding of terrorist organization capability with 
        supporting materials and connectivity to interpret and predict 
        threats.
        <bullet> Develop Terrorist Capabilities Baseline: Developing a 
        detailed understanding of terrorist capabilities baseline with 
        supporting materials and connectivity to interpret and predict 
        threats.
        <bullet> Collaboration and Fusion: Expanding collaboration and 
        fusion efforts from DHS to internal components, and out to an 
        extended customer base.
        <bullet> Analysis Coordination: Spearheading the effort to 
        build a collaborative and mutually supporting analysis 
        coordination schematic for DHS, and ensure that it incorporates 
        others (TTIC, TSC, and the Intelligence Community) into a 
        ``community of interest'' approach for understanding domestic 
        terrorist threats.

Infrastructure Vulnerability and Risk Assessment ($71.080 million)
    The Homeland Security Act directs the IAIP Directorate to carry out 
comprehensive assessments of the vulnerabilities of the critical 
infrastructure and key assets of the United States. As such, the IAIP 
Directorate serves as the focal point for coordination between the 
Federal government, critical infrastructure owners and operators, and 
state and local governments for the sharing of information and the 
planning for response to crisis events affecting infrastructures.
    The Fiscal Year 2005 President's Budget requests $71.080 million to 
fund the development of a comprehensive National infrastructure risk 
analysis and profile (e.g., high value/high probability of success 
targets); development of analytic tools to evaluate critical 
infrastructure and key assets; and the coordination and development of 
a National threat vulnerability and asset database to access, 
integrate, correlate, and store threat and vulnerability information.
    These mission areas will be enable IAIP to identify potential risks 
caused by infrastructure interdependencies, and determine the potential 
consequences of an infrastructure failure due to a terrorist attack. 
Ultimately, the intent of these efforts is to strengthen the 
capabilities of the IAIP Directorate and each critical infrastructure 
to provide near real-time notification of incidents; enhance the 
ability of the IAIP Directorate to assess the impact of incidents on 
critical infrastructure and key assets; to assess collateral damage to 
interdependent infrastructure; and create tools and processes to 
enhance infrastructure modeling and risk assessment capabilities.
    The Fiscal Year 2005 budget request for infrastructure 
vulnerability and risk assessment is divided into three areas:
        <bullet> National Infrastructure Risk Analysis: Funding in this 
        area supports the development of comprehensive risk and 
        vulnerability analyses on a national scale. These analyses are 
        cross-sector in nature, focusing on problems affecting multiple 
        infrastructures, both physical and cyber-related. As assigned 
        in the Homeland Security Act and HSPD-7, the IAIP Directorate 
        will continue to leverage and develop new techniques to map 
        data provided by threat analyses, provide consequence analysis, 
        and create vulnerability assessment teams based on the nature 
        of the indicators or incidents. The goal is to produce timely, 
        actionable information that is more meaningful to industry. A 
        portion of this funding also supports the direct involvement of 
        critical infrastructure sector experts to supplement risk 
        analysis efforts and to gain a better understanding of the 
        sector's core business and operational processes. In addition, 
        a portion of this funding is utilized for exploration and to 
        pilot innovative methodologies to examine infrastructure 
        vulnerabilities and interdependencies.
        <bullet> Analytic Tools Development and Acquisition: The IAIP 
        Directorate will continue to collaborate with the Science and 
        Technology (S&T) Directorate to acquire the most advanced tools 
        and database designs available to better understand the 
        complexities of interdependent systems and for translating vast 
        amounts of diverse data into common and usable information for 
        decision-makers, analysts, and infrastructure operators. Such 
        capabilities include data-logging systems, modeling and 
        simulation, data mining, and information correlation. Funding 
        is targeted toward developing dynamic and multi-faceted tools 
        designed to expand access to needed information.
        <bullet> National Threat/Vulnerability/Asset Databases: The 
        funding level requested for this activity in the fiscal year 
        2005 budget is based on the recognition of the data intensive 
        nature, scale and complexity of analyzing infrastructure 
        vulnerability issues. The intent is to develop and maintain 
        databases that allow the IAIP Directorate to provide its 
        stakeholders with up-to-date information on threats and 
        vulnerabilities. Specifically, the IAIP Directorate is 
        continuing to coordinate and direct the development of the 
        primary database of the Nation's critical infrastructures 
        through a collaborative process involving all stakeholders; 
        maintain data on the risks posed to specific facilities and 
        assets (and the probability of attack and associated 
        consequences for homeland, national, and economic security 
        should an attack occur); and develop, operate, and manage 
        integrated data warehouses--in full compliance with the 
        Department's privacy policies--that contain comprehensive 
        all<dagger>source threat, vulnerability, and asset data.

Information and Warning Advisories ($59.807 Million)
    One of the most visible aspects of the DHS mission lies in the 
management and administration of the Homeland Security Advisory System, 
the communications of threat condition status to the general public, 
and the continuous around-the-clock monitoring of potential terrorists 
threats. Specifically, there are three key information and warning 
activities that help support the Homeland Security Advisory System and 
other efforts to alert key Departmental leadership, national leaders 
and the general public: (1) tactical indications and warning and the 
associated warning advisory preparation and issuance; (2) information 
requirements management; and (3) integrated physical and cyber 
infrastructure monitoring and coordination.The Fiscal Year 2005 
President's Budget requests $59.807 million to maintain the information 
and warning program. In addition to continuously operating a 24x7 
capability, the information and warning program area will provide surge 
capabilities for the HSOC and with other Directorates during heightened 
states of alert or in response to specific incidents. The relevant 
fiscal year 2005 budget request is divided into three primary areas:
        <bullet> Tactical Indications and Warning Analysis/Warning 
        Advisory Preparation and Issuance: Funding in this area 
        supports submission of collection requests for threat 
        information to the Intelligence Community and law enforcement, 
        disseminating guidance to DHS components, developing analyses 
        on the nature and scope of the threats, and identifying 
        potential terrorist targets within the United States. A program 
        priority is the continued to development of tools and 
        technologies to assist our analysts to interpret, integrate, 
        and catalogue indicators, warnings, and/or actual events and to 
        provide Departmental and national leaders situational 
        awareness. Another priority is the need to publish threat 
        advisories, bulletins, and warnings at different levels of 
        classification prior to distribution to the relevant 
        stakeholders. Threat publications are detailed and disseminated 
        in a timely fashion, portraying the nature, scope, and target 
        of the threat. Ultimately, this information provides the basis 
        for determinations to change the threat condition.
        <bullet> Information Requirements Management: Information 
        related to threats and critical infrastructure vulnerabilities 
        are collected, stored, and protected within a diverse set of 
        locations and sources, spanning all levels of government 
        (Federal, state, and local) and including intelligence, 
        proprietary and public sources. Funding in this area supports 
        the technologies necessary to search within those diverse 
        databases to identify, distill, and/or acquire mission-critical 
        information. Program funding supports efforts to coordinate 
        information requests and tasks emanating from within other 
        parts of IAIP, other DHS Directorates, the Intelligence 
        Community, law enforcement, state and local governments, and 
        the private sector. In addition, a portion of these funds is 
        used to supplement the information technology structure to 
        accomplish these tasks efficiently and effectively through the 
        use of leading-edge capabilities. This effort ensures that all 
        information users are able to access all available and relevant 
        data.
        <bullet> Integrated Physical and Cyber Infrastructure 
        Monitoring and Coordination: Intelligence and warning staff 
        monitoring and coordination efforts ensure that threat and 
        critical infrastructure issues are adequately addressed and 
        represented. In addition, these efforts coordinate incident 
        response, mitigation, restoration, and prioritization across 
        critical sectors in conjunction with the other relevant DHS 
        components (e.g., Emergency Preparedness and Response 
        Directorate).

Remediation and Protective Actions ($345.738 Million)
    The IAIP Directorate has established a national Critical 
Infrastructure Protection program that leverages stakeholder input at 
the Federal, state, and local level and across the private sector to 
provide the best and most cost-effective protective strategies for ``at 
risk'' infrastructure and facilities. Through this program, the IAIP 
Directorate provides a broad range of services including on-site 
planning advice, technical and operational training programs, 
assistance in identifying vulnerabilities, and development and sharing 
of best practices. Activities in this area also include security 
efforts to protect infrastructure and assets from cyber attacks (e.g., 
malicious software, distributed denial-of-service attacks).
1Specifically, the Fiscal Year 2005 President's Budget requests 
$345.738 million, for remediation and protective actions divided into 
the following five areas:
        <bullet> Critical Infrastructure and Key Asset Identification: 
        The Homeland Security Act directs the IAIP Directorate to 
        recommend measures necessary to protect the critical 
        infrastructure of the United States. One key step in this 
        process is funding a national program focused on identifying 
        critical infrastructure and assets and assessing potential 
        risks of successful attacks to those assets. By understanding 
        the full array of critical infrastructure facilities and 
        assets, their interaction, and the interdependencies across 
        infrastructure sectors, IAIP is able to forecast the national 
        security, economic, and public safety implications of terrorist 
        attacks and prioritize protection measures accordingly. 
        Moreover, the process of identifying and prioritizing assets in 
        this manner creates a common overarching set of metrics that 
        consist of the individual attributes of specific infrastructure 
        sectors.
        <bullet> Critical Infrastructure Vulnerability Field 
        Assessments: The Directorate coordinates with all relevant 
        Federal, state and local efforts to identify system 
        vulnerabilities and works closely with the private sector to 
        ensure vulnerability field assessment methodologies are 
        effective, easy to use, and consistently applied across 
        sectors. Funding is targeted at the need to conduct and 
        coordinate specialized vulnerability assessments by DHS teams, 
        in conjunction with teams from other Federal or state agencies 
        and private sector companies as appropriate, for the highest 
        priority critical infrastructures and assets. The intent of 
        these efforts is to catalogue specific vulnerabilities 
        affecting the highest priority terrorist targets, thereby 
        helping guide the development of protective measures to harden 
        a specific facility or asset. A nationwide vulnerability field 
        assessment program is currently underway leveraging the 
        expertise of the IAIP Directorate, other agencies, and the 
        private sector to ensure cross-sector vulnerabilities are 
        identified and that sound, informed decisions will be reached 
        regarding protective measures and strategies.
        <bullet> Infrastructure and Key Asset Protection 
        Implementation: Due to the vast geographic size of the United 
        States and diverse operating environment for each 
        infrastructure sector, protection strategies must start at the 
        local level and then be applied nationally as needed. 
        Priorities for protection strategies are based on regional, 
        state, and local needs and on the need for cross-sector 
        coordination and protective actions within those geographic 
        boundaries. The budget request reflects the need for the IAIP 
        Directorate to continue the development of a flexible set of 
        programs to assist in the implementation of protective 
        measures. Examples include coordinating with other Federal and 
        state agencies and the private sector to: (1) ensure the 
        detection of weapons of mass destruction material is considered 
        in the development of protection plans; (2) disrupt attack 
        planning by taking low cost actions that make information 
        collection and surveillance difficult for terrorists; (3) 
        defend the most at risk critical infrastructure facilities and 
        key assets throughout the country above the level of security 
        associated with industry best practices; and (4) develop a 
        nationally-integrated bombing response capability similar to 
        that of the United Kingdom. DHS funding in these areas focuses 
        on high value, high probability targets and will take the form 
        of ``joint ventures'' with state and local governments, 
        regional alliances, and the private sector.
        <bullet> Cyberspace Security: Consistent with the Homeland 
        Security Act and the National Strategy to Secure Cyberspace, a 
        key element of infrastructure protection, both in the public 
        and private sectors, is to ensure the continued healthy 
        functioning of cyberspace, which includes the cyber 
        infrastructure and the cyber dependencies in the critical 
        infrastructure sectors. The IAIP Directorate recognizes that 
        cyberspace provides a connecting linkage within and among many 
        infrastructure sectors and the consequences of a cyber attack 
        could cascade within and across multiple infrastructures. The 
        result could be widespread disruption of essential services, 
        damaging our national economy, and imperiling public safety and 
        national security. The budget request supports efforts to 
        capitalize on existing capabilities of the Directorate, and 
        investing in new capabilities to monitor, predict, and prevent 
        cyber attacks and to minimize the damage from and efficiently 
        recover from attacks. As the manager responsible for a national 
        cyber security program, the IAIP Directorate provides direct 
        funding to support: (1) creating a national cyberspace security 
        threat and vulnerability reduction program that includes a 
        methodology for conducting national cyber threat and 
        vulnerability risk assessments; (2) strengthening a national 
        cyberspace security readiness system to include a public-
        private architecture for rapidly responding to and quickly 
        disseminating information about national-level cyber incidents-
        including the Cyber Alert Warning System; (3) expanding and 
        completing the warning and information network to support 
        crisis management during cyber and physical events; (4) 
        implementing a national cyberspace security awareness and 
        training program; (5) developing capabilities to secure the 
        United States Government in cyberspace that include guidelines 
        for improving security requirements in government procurements; 
        (6) strengthening the framework for national security 
        international cyberspace security cooperation that focuses on 
        strengthening international cyber security coordination and; 
        (7) the Global Early Warning Information System, which monitors 
        the worldwide health of the Internet through use of multiple 
        data sources, tools, and knowledge management to provide early 
        warning of cyber attacks.
        <bullet> Protection Standards and Performance Metrics: Working 
        in collaboration with the National Institute of Standards and 
        Technology as appropriate, the IAIP Directorate is developing 
        objective data for systems protection standards and performance 
        measures. Several sectors currently use threat-based exercise 
        approaches to validate key elements of their protection 
        efforts. The budget request in this area will focus on 
        continually improving and validating sector plans and 
        protective programs and providing training and education 
        programs for public and private sector owners and operators of 
        critical infrastructure and/or key assets.

Outreach and Partnership ($40.829 Million)
    The private sector and state and local government own and operate 
more than 85 percent of the Nation's critical infrastructures and key 
assets. Consequently, public-private cooperation is paramount, and 
without such partnerships, many of our Nation's infrastructures and 
assets could be more susceptible to terrorist attack. The IAIP 
Directorate is responsible for cultivating an environment conducive for 
public and private partnerships, developing strategic relationships 
underlying those partnerships, and coordinating and supporting the 
development of partnerships between the Directorate and state and local 
government, private industry, and international communities for 
national planning, outreach and awareness, information sharing, and 
protective actions.
    The Fiscal Year 2005 President's Budget requests $40.829 million to 
build and maintain a sound partnership foundation. It is imperative 
that the Department is familiar with the issues confronting the private 
sector, state and local governments, Federal sector specific agencies 
for critical infrastructure, and our international partners. 
Specifically, strong relationships must be maintained with the 
following communities of interest:
        <bullet> State and Local Governments: Establishing and 
        maintaining effective working relationships with State and 
        local officials is a fundamental part of the DHS mission to 
        effectively share information at unprecedented levels. IAIP is 
        working with DHS' Office of State and Local Government 
        Coordination to assess the information sharing and 
        dissemination capabilities that exist nationwide in order to 
        leverage existing capabilities and supplement capacity where 
        needed.
        <bullet> Private Sector: The Private Sector is another key 
        partner in developing a nationwide planning, risk assessment, 
        protective action, and information sharing strategy. Engaging 
        the business community and making a business case for 
        investment in protective and remedial strategies is key to our 
        success.
        <bullet> Academia: DHS will continue to develop, coordinate, 
        and support partnerships with academic and other educational 
        institutions. These partnerships will encourage and coordinate 
        academic and other workforce development to assure availability 
        of quality IT security professionals, and encourage curriculum 
        development to integrate critical infrastructure protection 
        (security) as normal elements of professional education.
        <bullet> Advisory Bodies: DHS will also provide support to 
        Presidential advisory bodies and cross-sector partnerships 
        (including the National Infrastructure Advisory Council and the 
        Partnership for Critical Infrastructure Security.)
        <bullet> International: This funding will also support and 
        enhance partnerships with the international community, working 
        with and through DHS Office of International Affairs and the 
        State Department, collaborating with the United States State 
        Department on infrastructure protection activities. This 
        includes bilateral discussions and activities on risk 
        assessment and protective actions, information sharing, 
        exercises and training. Of particular focus is the IAIP 
        component of the Smart Borders implementation with Canada and 
        Mexico. We will continue our role as the lead Federal Agency 
        Role for the Information and Telecommunications Sectors. The 
        Directorate will continue to partner with representatives from 
        those industries composing the Information and 
        Telecommunications sector and to educate members of the sector, 
        develop effective practices, develop and implement intra-sector 
        and cross-sector risk assessments, and work with other sectors 
        on identifying and addressing risks associated with 
        interdependencies.
        <bullet> Cyber: We will expand the platform established by the 
        Cyber Alert Warning System to include awareness and education 
        programs for home users of computers and computer professionals 
        in partnership with other Federal agencies and industry. 
        Additionally, within private industry, our partnership and 
        outreach efforts will involve the engagement of risk management 
        and business educational groups to implement strategies to 
        elevate senior management understanding of the importance of 
        investment in cyber security.

National Communications System ($140.754 Million)
    The national telecommunications infrastructure supports multiple 
mission-critical national security and emergency preparedness (NS/EP) 
communications for the Federal government, state and local governments, 
and the private industry. The security and availability of the 
telecommunications infrastructure is essential to ensuring a strong 
national, homeland, and economic security posture for the United 
States. The National Communications System (NCS) is assigned NS/EP 
telecommunications responsibilities through Executive Order 12472, 
Assignment of National Security and Emergency Telecommunications 
Functions, which include: administering the National Coordinating 
Center for Telecommunications to facilitate the initiation, 
coordination, restoration, and reconstitution of NS/EP 
telecommunications services or facilities under all crises and 
emergencies; developing and ensuring the implementation of plans and 
programs that support the viability of telecommunications 
infrastructure hardness, redundancy, mobility, connectivity, and 
security; and serving as the focal point for joint industry-government 
and interagency NS/EP telecommunications planning and partnerships.
    The Fiscal Year 2005 President's Budget requests $140.754 million 
for the capabilities and analytic tools necessary to support the 
expansion of NS/EP telecommunications programs and activities. The 
fiscal year 2005 funding level ensures a continuation of the NCS 
mission and legacy NS/EP telecommunications programs and assets. 
Specifically, the fiscal year 2005 budget request for the NCS is 
divided into four areas:
        <bullet> Industry-Government and Interagency Processes: The NCS 
        has cultivated and expanded its relationships with the 
        telecommunications industry and other Federal agencies to 
        promote joint planning, operational activities, coordination, 
        and information sharing. The primary industry partnership is 
        the President's National Security Telecommunications Advisory 
        Committee (NSTAC), which is comprised of 30 industry leaders 
        representing various elements of the telecommunications 
        industry. The NSTAC and its subordinate body, the Industry 
        Executive Subcommittee (IES), provides industry-based analyses 
        and perspectives on a wide range of NS/EP telecommunications 
        issues and provides policy recommendations to the President for 
        mitigating vulnerabilities in the national telecommunications 
        infrastructure. Paralleling this industry relationship is the 
        interagency process involving the NCS Committee of Principals 
        and its subordinate body, the Council on Representatives, which 
        facilitate the NS/EP telecommunications activities of the 23 
        Federal agencies constituting the NCS.
        <bullet> Critical Infrastructure Protection Programs: 
        Leveraging the industry relationships described above, the NCS 
        manages several network security and CIP-related programs, 
        including: (1) the National Communications Center (NCC), a 
        joint industry--and Government-staffed organization collocated 
        within the NCS and serves as the operational focal point for 
        the coordination, restoration, and reconstitution of NS/EP 
        telecommunications services and facilities; (2) the 
        Telecommunications Information Sharing and Analysis Center, 
        which is the focal point for the generation, compilation, and 
        sharing of cyber warning information among the 
        telecommunications industry; (3) the Government and National 
        Security Telecommunications Advisory Committee Network Security 
        Information Exchanges (NSIEs), which meet regularly and share 
        information on the threats to, vulnerabilities of, and 
        incidents affecting the systems comprising the public network; 
        (4) the Critical Infrastructure Warning Information Network 
        (CWIN), which is designed to facilitate the dissemination of 
        information and warnings in the event of a cyber attack; (5) 
        Training and Exercises, which helps ensure the readiness and 
        availability of qualified staff to perform the operational 
        duties of the NCS associated with Emergency Support Function 
        #2--Telecommunications of the Federal Response Plan; (6) 
        Operational Analysis, which develops and implements tools and 
        capabilities to conduct analyses and assessments of the 
        national telecommunications infrastructure and its impact on 
        NS/EP services; (7) NCS also supports the Global Early Warning 
        Information System, which monitors the worldwide Internet 
        health through use of multiple data sources, tools, and 
        knowledge management to provide early warning of cyber attacks, 
        (8) Shared Resources (SHARES) High Frequency (HF) Radio 
        Program, developed by the NCS and in continuous operation since 
        being approved by the Executive Office of the President in the 
        NCS Directive 3-3 of January 1989. The SHARES program makes use 
        of the combined resources and capabilities of existing Federal 
        and federally affiliated HF radio stations on a shared, 
        interoperable basis to provide critical backup communications 
        during emergencies to support national security and emergency 
        preparedness (NS/EP) requirements.
        <bullet> Priority Telecommunications Programs: The NCS is 
        continuing a diverse set of mature and evolving programs 
        designed to ensure priority use of telecommunications services 
        by NS/EP users during times of national crisis. The more mature 
        services--including the Government Emergency Telecommunications 
        Service (GETS) and the Telecommunications Service Priority 
        (TSP)--were instrumental in the response to the September 11th 
        attacks. Fiscal Year 2005 funding enhances these programs and 
        supports the development of the Wireless Priority Service (WPS) 
        program and upgrade to the Special Routing Arrangement Service 
        (SRAS). Specifically, priority service programs include: (1) 
        GETS, which offers nationwide priority voice and low-speed data 
        service during an emergency or crisis situation; (2) WPS, which 
        provides a nationwide priority cellular service to key NS/EP 
        users, including individuals from Federal, state and local 
        governments and the private sector; (3) TSP, which provides the 
        administrative and operational framework for priority 
        provisioning and restoration of critical NS/EP 
        telecommunications services; (4) SRAS, which is a variant of 
        GETS to support the Continuity of Government (COG) program 
        including the reengineering of SRAS in the AT & T network and 
        development of SRAS capabilities in the MCI and Sprint 
        networks, and; (5) the Alerting and Coordination Network (ACN) 
        which is an NCS program that provides dedicated communications 
        between selected critical government and telecommunications 
        industry operations centers.
        <bullet> Programs to Study and Enhance Telecommunications 
        Infrastructure Resiliency: The NCS administers and funds a 
        number of programs focusing on telecommunications network 
        resiliency, security, performance, and vulnerabilities, 
        including: (1) the Network Design and Analysis Center, which is 
        a set of tools, data sets, and methodologies comprising the 
        Nation's leading commercial communications network modeling and 
        analysis capability that allows the NCS to analyze the national 
        telecommunications and Internet
infrastructures; (2) the NS/EP Standards program, which works closely 
with the telecommunications industry to incorporate NS/EP requirements 
in commercial standards and participates in national and international 
telecommunications standards bodies; (3) the Converged Networks 
Program, which investigates vulnerabilities and mitigation approaches 
in future technologies and networks (specifically Internet Protocol-
based networks); (4) the Technology and Assessment Laboratory, which 
provides the ability to evaluate penetration testing software, modeling 
tools, various operating systems and protocols, hardware 
configurations, and network vulnerabilities, and; (5) the Routing 
Diversity effort, which is developing a communications routing 
diversity methodology to analyze a facility's level of routing 
diversity and is evaluating alternative technologies which can provide 
route diversity, and (6) the NCS, through various associations and 
other activities is involved in a variety of International Activities 
(NATO, CCPC, CEPTAC, and Hotline) which provides technical subject 
matter expertise, guidance, and coordination on CIP issues affecting 
the telecommunications infrastructure in numerous international forums 
on behalf of the United States Government.

Competitive Analysis and Evaluation ($18.868 Million)
    The Competitive Analysis and Evaluation program ensures that IAIP 
products and services are tested, accurate, based on sound assumptions 
and data, and ultimately, offer the highest quality, depth, and value 
to IAIP customers. The Fiscal Year 2005 President's Budget requests 
$18.868 million to provide for the unbiased, objective analyses and 
evaluation of IAIP findings, assessments, and judgments through three 
functional areas: Risk Assessment Validation, Evaluation, and Exercises 
and Methodologies.
        <bullet> Risk Assessment Validation: Funding is used to 
        establish and field physical and cyber target risk analysis 
        teams that employ ``red team'' techniques to evaluate measures 
        taken by other IAIP components to protect key assets and 
        critical infrastructure. The red teams emulate terrorist 
        doctrine, mindsets, and priorities and employ non-conventional 
        strategies to test and evaluate IAIP planning assumptions.
        <bullet> Evaluation: Funding supports several initiatives, 
        including the IAIP Product and Process Evaluation, which 
        involves conducting independent, objective evaluations of IAIP 
        products and processes and to assist IAIP divisions to develop 
        products that offer value to IAIP customers. The second is IAIP 
        Customer Satisfaction, which evaluates customer satisfaction 
        with IAIP products and services to ensure they are responsive 
        to current customer needs. Funding in this area provides for 
        electronic and non-electronic feedback surveys, field visits, 
        and conferences.
        <bullet> Exercises and Methodologies: Coordinate and manage 
        interagency exercises and tabletops that test both DHS and IAIP 
        policies, processes, procedures, capabilities, and areas of 
        responsibilities. Participating in and conducting after action 
        reviews of exercises provides invaluable experience and 
        feedback related to capabilities, connectivity, and information 
        sharing during a crisis event. Investment in this area informs 
        the Department's decision as to where improvements are needed. 
        This funding also supports examining and instituting advanced 
        methodologies such as alternate hypotheses, gaming, modeling, 
        simulation, scenarios, and competitive analyses to ensure IAIP 
        products are accurate, sophisticated, and of the highest 
        quality and value to customers.

National Plans and Strategies ($3.493 Million)
    Critical to ongoing national efforts to protect and secure the 
homeland are updating, revisiting, coordinating the development, and 
monitoring the implementation of National Plans and Strategies. The 
Fiscal Year 2005 President's Budget requests $3.493 million to support 
activities by coordinating, developing, and publishing contingency 
planning documents for critical infrastructures (as called for in the 
National Strategy to Secure Cyberspace), monitoring progress against 
those documents, and producing an annual report.

Homeland Security Operations Center ($35.0 Million)
    The HSOC maintains and shares domestic situational awareness; 
coordinates security operations; detects, prevents, and deters 
incidents; and facilitates the response and recovery for all critical 
incidents. The HSOC is the focal point for sharing information across 
all levels of government and the private sector.
    The HSOC facilitates the flow of all-source information and 
develops products and services including: (1) the daily Homeland 
Security Situation Brief for the President, (2) reports and briefs to 
law enforcement, the Intelligence Community, other Federal and state 
agencies and industry partners, (3) warnings and alerts to individual 
responder agencies and the public as appropriate, and (4) coordinated 
response when crises do occur. The HSOC concept is to draw from the 
many distributed systems and centers that are currently dedicated to 
different missions and optimize their contribution to homeland 
security.
    HSOC funding will help with the time efficiency of issuance of 
information and warning advisories through increased operations 
efficiency brought about by facility improvements.

New Programs
    In the fiscal year 2005 IAIP budget, as a part of an interagency 
effort to improve the Federal Government's capability to rapidly 
identify and characterize a potential bioterrorist attack, the 
President request $11 million for a new biosurveillance iniative. This 
increase provides for real-time integration of biosurveillance data 
harvested through the Centers for Disease Control (CDC), Food and Drug 
Administration (FDA), United States Department of Agriculture (USDA) 
and DHS Science and Technology (S & T) Directorate with terrorist 
threat information analyzed at IAIP. Currently, a finding from one 
source of surveillance exists in isolation from relevant surveillance 
from other sectors, making it difficult to verify the significance of 
that finding or to recommend appropriate steps for response. 
Integrating the information in IAIP, and analyzing it against the 
current threat picture will inform effective homeland security 
decision-making and speed response time to events.
    This interagency initiative, includes DHS's ongoing BIOWATCH 
environmental biodetection program, Health and Human Services' (HHS) 
proposed BIOSENSE program, HHS' and United States Department of 
Agriculture's (USDA) ongoing joint separate food security surveillance 
efforts, and USDA's agricultural surveillance efforts. This DHS-led 
effort will promote data sharing and joint analysis among these sectors 
at the local, state, and Federal levels and also will establish a 
comprehensive Federal-level multi-agency integration capability to 
rapidly compile these streams of data and preliminary analyses and 
integrate and analyze them with threat information

Conclusion:
    In summary, the fiscal year 2005 budget request provides the 
resources to enable the IAIP Directorate to manage and grow in its 
mission of securing the homeland. I look forward to working with you to 
accomplish the goals of this department and the IAIP directorate.
    Mr. Chairman and Members of the Subcommittees, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Mr. Gibbons. We will turn to members for 5 minutes or for 
those people that did not make an opening statement an 
additional 3 minutes to their time to ask questions.
    I will begin by asking you a sort of ``current events'' 
topic today. The Congressional Quarterly this morning is 
reporting that the Heritage Foundation is about to release a 
report that is somewhat critical of the Department for being--
and I will quote their statemen--just another end user, end 
quote, of intelligence information.
    The article further implies that the Department of Homeland 
Security is not a full partner, because it does not have 
oversight authority over TTIC.
    Could you address this issue for the committee? Is DHS a 
full partner at TTIC, or is DHS simply just another end user of 
the information?
    General Libutti. I appreciate the questions, sir. It gives 
me a chance to share with you my views relative to not only 
TTIC but our charge and responsibility.
    As you all know, we are the newest member of the Federal 
intelligence community, and we full members. We are not red-
shirting. We are not standing in the back of the bus. We are 
full players. We demand excellence. We interact with members of 
the community across the country in terms of providing input to 
us from State and local, private sector.
    In terms of the TTIC response, I would tell you this. We 
are part of the TTIC. We are TTIC. The key players in TTIC are 
the CIA, the FBI and Homeland Security. Members of Homeland 
Security work in the spaces and operation and function within 
the TTIC environment.
    TTIC's key point in terms of function is integration. They 
bring together foreign and overseas data and intelligence. They 
combine that with input from Homeland Security, the Justice 
Department, key point, FBI, and they integrate, fuse, analyze 
and share it with their customer base, which are the key 
players in the Federal Government.
    When we receive that information, we are charged to and 
absolutely every day execute comparative and competitive 
analysis of that information. And what is different about what 
we do, sir--and ladies and gentlemen--is that we focus on the 
domestic scene, and we do so, again, in concert with our 
customer base.
    So when we analyze information relative to a threat, be it 
general or specific, we take that input which our folks at TTIC 
have helped in supporting development of, and we provide to our 
IA leadership, General Pat Hughes, input from State and local 
folks. We analyze that with a view towards action, protective 
or preventive action, in support of protecting the country.
    Quite frankly, I see TTIC as a great effort, a great 
initiative set up, established at the right time, at the right 
place, as the country looked for a service to function and 
integrate intelligence. For me and from my standpoint, it is 
working.
    I just glanced very quickly this morning at the Heritage 
article. I respect the leadership at Heritage. They have not 
called me or talked to me about their concerns or their 
viewpoints. I dare say, although I don't know this for fact, 
they probably didn't talk to General Pat Hughes either or any 
of our folks in our intelligence organization. But I dare say 
perhaps with further investigation that investigation would 
reveal that, number one, we have a principal, primary mission 
to support and protect the homeland. We are in the intelligence 
business. Our focus is different than the agency, the CIA, or 
TTIC, and I think we are doing it smartly.
    Mr. Gibbons. Mr. Secretary, I gather from your comments 
that you feel the article was either inaccurate or 
misrepresentative of the facts?
    General Libutti. Sir, again, I glanced at it very briefly. 
I would say that if indeed the article represents a notion that 
we are not full players, that is absolutely incorrect.
    Mr. Gibbons. Let me ask a very brief question. I have 40 
seconds to do this, and hopefully we can get through it.
    There have been a lot of news articles and reviews recently 
reporting that the terrorist watch list is not functional and 
that border security officials and law enforcement personnel 
don't have easy access to this information. I think we all 
understand that the Terrorist Screening Center is an FBI 
program. Could you briefly address this issue from the 
perspective of a customer of the Terrorist Screening Center?
    General Libutti. The FBI Department of Justice does lead 
the effort now. I think it is a feather in the cap of the 
Department of Justice and overall those who deal with 
countering terrorism in the country that the Terrorist 
Screening Center is alive and well, up and functioning and 
producing great results.
    The bottom line in terms of what that center is about is to 
help the cops on the beat at State locations, providing a 
single point of contact for entry into the national system 
which would ask appropriate questions regarding those we 
suspect of being terrorists or conducting terrorist activity. 
It is still in its initial phases.
    As you all well know--and if you don't I will provide a 
quick summary--one, the charge is work day-to-day now; and they 
are doing that. I would tell you that my recollection is that 
there have been since 1 March 1,388 inquiries into that system 
and 527 positive hits that have helped law enforcement across 
the country deal with the situation at hand. I mean, that has 
got to mean something in terms of not only the operational side 
of it but what we see as a way ahead in terms of what we expect 
in the future when the program is fully mature.
    My recollection as well is that local cops have access to 
over 50,000 records that are now part of what is available to 
cops on the beat.
    My recollection as well is that we had hoped to complete 
the second aspect of the Terrorist Screening Center and the 
Department of Justice and the FBI's work is that we would take 
numerous watch lists and integrate them into a single database. 
That effort, indeed, may take longer than we had expected as an 
effort we could do by this summer.
    But the point of fact is the system is working. The 
clarification, purification, adjustments of the watch list is 
being done, and a single database is indeed being developed.
    So the system works now; and, as I said earlier, I think it 
has had tremendous credibility in terms of how cops see that 
system working now to support them.
    Mr. Gibbons. Thank you very much.
    I will turn now to Ms. Sanchez of California for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Well, I asked a whole bunch of questions in the beginning, 
so let me just go over a couple of them, and maybe you can get 
to them quickly.
    The first one was on the critical infrastructure and having 
the database listing. As I said, Mr. Liscouski had said that it 
would be completed within 5--might be completed within 5 years. 
What is the right estimate? Who is in charge of the effort? 
What methods are being used to prioritize that critical 
infrastructure? How comprehensive is the database going to be? 
I know that this is an unclassified setting, but can you tell 
us generally what is included, what industries, what public 
infrastructure?
    Secondly, if you could speak, please, to the funding 
decrease for the risk assessment in fiscal year 2005. If we 
don't have a completed assessment yet and we are not going to 
have it for 5 years, then why are we cutting the funding in 
that category? Aren't you concerned that we are not getting 
adequate staff to do this or adequate funding to do it, 
considering it has been 2 years--over 2 years since 9/11 and 
this committee has seen nothing done with respect to this work 
yet?
    General Libutti. Well, I respect your comments, ma'am, but 
I must say there has been an awful lot done in terms of risk 
assessment, contacts that we have made in IAIP with Bob 
Liscouski in the lead and his magnificent team. We plan on 
moving forward over the next year to look at 1,700 facilities. 
When you lay that out against the thousands of infrastructure 
facilities across the country, you would say, well, that may 
not be much more than a drop in the bucket, except with this 
footnote.
    What we have done with the private sector and business 
leaders is looked across the country at what we believe are 
key, critical infrastructure sites or facilities, and we have 
prioritized our efforts to deal with those facilities that we 
think are what I call critical centers of gravity, the loss of 
which would result in economic failure, lack of trust from the 
American people and a catastrophic failure in terms of function 
of the cities and areas around those facilities.
    So that has been done. We have connected with people in the 
private sector as well as State and local authorities.
    Ms. Sanchez. So this security that is being done on these 
very critical situations that you have said you have already 
taken a look at, has there been Federal money spent to help 
fortify that or not?
    General Libutti. Money out of my Directorate has been 
spent, was spent in 2003 and is now being spent to support, 
one, identifying that which is most critical, two, working to 
analyze the actions that need to be taken--we call protective 
measures--to reinforce or harden those facilities or targets 
and--.
    Ms. Sanchez. Why is that information not shared with the 
Subcommittee on Critical Infrastructure?
    General Libutti. I can't answer that, ma'am. I am surprised 
to hear you say that. I will make every effort and--.
    Ms. Sanchez. I mean, we have asked over and over for some 
sort of list or what are you doing or what is the 
infrastructure you are protecting or what should we protect. 
Because remember, after all, we are the ones that control the 
dollars to all of this.
    General Libutti. Ma'am, you are absolutely right; and I 
hear you loud and clear. Let me outline within this 1,700 
number I gave you where we are going.
    Ms. Sanchez. And how did you choose the 1,700? I mean, this 
is the question we all have. We don't know.
    General Libutti. I will do my very best to answer your 
question, ma'am.
    The broad areas that we are looking at with a priority of 
effort, the chem sites, nuclear power plants, soft targets, for 
example, shopping malls, stadiums and the rest, electric power 
substations and mass transit systems--when people ask me, Frank 
Libutti, what are your concerns overall in terms of how you see 
the threat and that which will be paramount in your mind in 
terms of protective action working with the private sector and 
the other folks in the intelligence community and our other 
customer base, I would tell you, broadly speaking, it is 
transportation, it is aviation--transportation at large, 
aviation and energy.
    The points I just made relative to where our current focus 
is represents the priority of action in terms of where we are 
going to go over the next year, and I regret that you are not 
informed relative to that. I will make a very special effort 
to--.
    Ms. Sanchez. Great. So I can get a list of the 1,700Sec. 
    General Libutti. To bring those details to you, ma'am.
    Ms. Sanchez. Whether it has to be in a secret meeting or 
what have you. But, I mean, we really have been asking for this 
information, and we have seen nothing.
    General Libutti. You asked how we arrive at this. In our 
business, in terms of how Intel informs actions, other than the 
Intel actions which we refer to, setting requirements, 
collecting against requirements, analyzing that and taking 
actions, that is the Intel side. But the real action side of 
what we do, something that should be and will be measured and 
shared with you all, is Bob Liscouski's action. My expectation 
is not only will we hold meetings, conference calls and 
councils across the country with appropriate ISACs and CEOs, I 
am looking for material changes that really make a difference 
in terms of the physical plant. And we are working towards 
that. That is a priority for what we are all about.
    Again, I will be happy to share that with you or ask Bob 
Liscouski to share that with you as well.
    Ms. Sanchez. Thank you, Mr. Chairman. I see that my time 
has expired. Thank you.
    Mr. Gibbons. Thank you, Ms. Sanchez.
    We will return now to the chairman of the full committee, 
Mr. Cox, for 5 minutes.
    Mr. Cox. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I want to cover just one or two 
topics, but I have a lot of little, detailed questions. So I am 
going to do something unusual and ask you to just jot down some 
notes. I am going to start out with eight little questions 
about factoids that I think you can just tell me you know the 
answer to or you don't and you can get back to us, if that is 
all right.
    The first--and the two topics concern, first, IAIP growth 
plans and how you are staffing up; and the second concerns the 
downstream role of TTIC and the relationship of TTIC to IAIP.
    So here are eight questions that I hope will elicit some 
data in response.
    First, your budget request this year, the Department's 
budget request, seeks to fund 19 new analysts in IAIP, and I am 
just wondering what that represents in terms of a percentage 
increase, how many you have currently.
    Second, where are we getting these 19 people? Are these 
going to be fresh hires from universities, or will we fish in 
some other pond?
    Third, how long will it take to bring the 19 up to full 
capability?
    Fourth, are they going to be hired for specific subject 
matter expertise, for example, in biohazards?
    Fifth, inasmuch as there are other intelligence agencies 
that are also hiring analysts and some of them have more 
established brand names, does Congress need to help you provide 
additional incentives so that you can attract the kind of 
analysts that you need? Are you thinking about that, or do you 
need to--.
    General Libutti. I can answer that question, if I may 
interrupt and say as I said earlier--and I don't mean this to 
be--try to be cute. We need all the help we can get, and I will 
talk when you finish, sir, about our way ahead in terms of 
staffing, planning, recruiting efforts, et cetera. But 
certainly any encouragement, particularly from a gentleman of 
your persuasion and reputation, is going to make a difference, 
and I thank you for it.
    Mr. Cox. Well, to try and throw that question more in the 
category of the others so that you can respond with just--that 
could be a difficult conceptual topic to get into, but, you 
know, very specifically, do you need authority for more money 
in order to do that?
    Six, does DHS and do you at IAIP have your own training 
program for your analysts? How will they be trained? By whom? 
Is there a set program, for example.
    Seventh, what is the current percentage of your analysts at 
IAIP who are detailed from other Federal agencies?
    And eighth, and finally, what percentage of IAIP's analysts 
are now contractors or annuitants?
    You may be able to answer some or all of those with the 
information you brought, and possibly you will have to get back 
to us. I would appreciate that either way.
    The other question relates to TTIC. I have a transcript of 
an interview on Fox News, or at least a news story on Fox News, 
quoting John Brennan at TTIC. Mr. Brennan repeats something we 
have heard in this committee before, that Homeland's mission 
stops at the U.S. shore. It concerns me a great deal, because I 
think it is abundantly clear that the mission does not stop at 
the U.S. shore. There is absolutely nothing in the Homeland 
Security Act that suggests that.
    As a matter of fact, today's terrorist threat to the people 
who live in America's cities and towns is an overseas-directed 
threat, and the information that we are eliciting from 
questioning of Al- Qa`eda operatives in Guantanamo is leading 
us not only to the place that they might conduct their 
activities in the United States but also to their overseas 
bases and to the organizations that are both directing these 
things and recruiting additional people to do it. We set up the 
Homeland Security Department so that we would have someplace 
where we could deal with this unique threat with the nature of 
this.
    What I will say is TTIC's unique disadvantage is just the 
opposite of what Mr. Brennan is saying, and that is that TTIC, 
under the direction of the DCI and de facto if not de jure 
under the control of the CIA, cannot, should not and must not 
be involved in domestic U.S. homeland security.
    Mr. Cox. They are essentially an overseas operation, so we 
have to have TTIC and IAIP to perform those statutory 
functions.
    I just want to leave you with section 201(D) of the act 
which I am fond of quoting. It is, in fact, the law, and it 
says that first on a list of your responsibilities is to 
access, receive, and analyze law enforcement information, 
intelligence information, and other information from agencies 
of the Federal Government, State and local government agencies, 
including law enforcement agencies and private sector entities, 
and to integrate such information in order to identify and 
assess the nature and scope of terrorist threats to the 
homeland, detect and identify threats of terrorism against the 
United States, and understand such threats in light of actual 
and potential vulnerabilities of the homeland.
    I cannot for the life of me see how that mission differs 
from TTIC's. I think they have set themselves up as a direct 
competitor.
    So my second question to you is, can we anticipate down the 
road a plan for Homeland to acquire control over this 
operation, which the Inspector General says is a competitor 
that is diminishing your opportunity to do your job?
    And I want to conclude all of these questions by saying, I 
ask these in a spirit of complete, unequivocal support for your 
mission and what you are doing. This committee is the strongest 
booster for the Department in Washington that you are going to 
find. We want you to be as effective as possible in fulfilling 
those statutory mandates. That is a lot, but--.
    General Libutti. Sir, I will do my very best with the time 
constraints and the rest, and mind my manners in that regard. 
So I will try to get through key points. One is the manpower 
piece, TTIC, and related questions, that which I do not have a 
chance to answer, so we will provide that back to you and to 
the chairman as requested.
    General Libutti. But let me start with the last point. 
Again, I was the Commissioner For Counterterrorism in New York 
City when all of this came about in terms of the establishment 
of TTIC. So when I came in as prepped for my hearings, I had to 
get smart on TTIC, the interaction with IAIP, the Department of 
Homeland Security, and other members of the Intelligence 
Community. And at the time, and as I now feel, the 
establishment and stand-up of TTIC was the right thing at the 
right time under the right leadership. Our relationship with 
John Brennan as the leader of that organization has been 
superb.
    As I said or alluded to, and I will try to restate it more 
clearly now when I reference the point that we are TTIC, I 
believe that in my heart, I believe that intellectually. We are 
both customer and contributor to the TTIC effort, and I think 
it has been more than satisfactory in terms of supporting our 
needs as an integrator and an organization that is not per se 
operational, nor does it per se collect, but it gathers. We are 
in the business of taking that information and intelligence and 
actioning it to people that have a responsibility to protect 
the homeland, both in the Federal Government and in the State 
and local arenas. There is my bottom line in terms of your last 
point. In the future, we ought to be open enough to keep all 
options on the table relative to any organization that supports 
the intelligence effort of this great country.
    Let me move to manpower, sir, and you know most of this, so 
I will try to cut through the details and provide bottom line 
executive ceremony. When IAIP inherited positions from five 
legacy organizations, the vast majority of which were vacant; 
that is, we got the authority but people did not come with 
that, and the numbers I want to share with you are 409 vacant 
of 544 total for 2003. We put into place an aggressive hiring 
plan. That plan includes the following: identification of our 
unique needs. We are talking people that have to, at the end of 
the day, to fully support our operation, have Top Secret/SCI 
clearances, because the space I work in is a SCIF space.
    Next, we have been using contract support to help us write 
position descriptions, advertise the jobs, conduct interviews 
with appropriate candidates, and alluding to one point you made 
earlier, I would just say in a broad sense we are looking for 
at every corner to recruit, in academia, young, hard charges 
coming out of the service, people who have been long-standing 
experts in the intelligence field. There are no holds barred, 
no restrictions in terms of those we are looking at to bring 
into this and bring onto this great team.
    The plan is to bring 40 new employees a month on board. We 
currently have on board 263 full-time employees, with another 
100 positions in the hiring process. What that means is we have 
interviewed 100 people, and I am hoping and praying, saying my 
rosary, that the majority of those folks are motivated to come 
on board and support us, because we need them, and you are 
absolutely right.
    These folks are supplemented by 214 detailees and 
contractors for an on-board strength of 471 people. Please 
understand, as I know you do, sir, but permit me to carry on, 
it is a heck of a challenge in trying to find qualified folks, 
because the competition in this town is not simply in terms of 
the Federal Government, including intelligence agencies, but it 
is with the private sector, the private sector who is 
appropriately reaching out and doing business with us in the 
area of homeland security, and IAIP needs the same credentials 
and classification requirements as my folks need.
    So back to a point you made earlier, and it is not about 
money, because we got enough money; it is about the reputation 
and encouragement of everybody in a leadership position in this 
town to help us recruit. And I would ask you to help me with 
that, sir.
    One of the challenges we have, and my staff and I are 
focused on this big time, I think it gets back to a question 
that Representative Turner raised, or maybe even just suggested 
we look at, and we are, sir, and that is the whole 
classification system. It takes a year or a year-and-a-half to 
get somebody cleared and, quite frankly, being the infantry guy 
I am, a fairly simple person in terms of getting things done, I 
want to get things done. And while I am not criticizing the 
current system, because it is appropriate given the guidelines 
that we all work under now, I am going to try to move forward 
and ask folks to deal with that, to look hard at the whole 
classification system. Not that we would circumvent the 
requirement to bring in people that are clean as a whistle, 
that have great integrity and can deal with classified 
material, but the fact is it slows the heck out of what we are 
trying to do.
    The question relative to analysts in IAIP, we have 74 FTEs 
and 37 detailees for a total of 111 people. And given my 
approach towards recruiting, we can bring on 40 or so a month, 
and we will move ahead to close the gap and meet our objectives 
in terms of hiring.
    Sir, that just touches broadly on your two questions. I am 
happy again to provide answers on the following additional 
questions you rifled at me in terms of experts to deal with 
biohazard and the training piece and the rest, and I am happy 
to do that, with your blessing.
    Mr. Cox. As follow up, that is fine.
    General Libutti. Yes, sir. Appreciate it, sir.
    Mr. Gibbons. Thank you very much, Mr. Cox. We will turn now 
to Ms. McCarthy for 5 minutes.
    Ms. McCarthy. Thank you, Mr. Chairman. And thank you, sir, 
for your testimony here today.
    I want to follow up with you, first of all, by telling you 
how pleased I am that you are requesting an increase in funding 
for communication skills and efficiency of informations and 
warnings, and I thank you for sharing the good news with us 
about the watch list improvements for our police. You have been 
on the frontline in New York and in the world of the police 
department, and so you know how vital that is.
    You mentioned in your testimony that there is going to be 
improvement on the wireless service for Federal, State, and 
local officials, and that is truly one of the key topics I hear 
from my first responders when I am talking to them in the 
district.
    Would you explain a little bit more about that wireless 
service that you mentioned and how it is going to be 
interoperable? I hope that is under consideration; I did not 
hear that in your remarks, and I wonder if it does include 
interoperability, because I think that that is one of the most 
important things our first responders bring up with us. They 
need timely, usable information from the Department, and then 
they have to make informed decisions and hopefully prevent some 
sort of terrorist incident out there in America, and there are, 
of course, several methods and ways to share information. But I 
wonder what type of information IAIP plans to share with State 
and local officials and the methods that they will use to pass 
this along, particularly in a timely way.
    General Libutti. I thank you for the question. It reflects 
our priority as well. I know that you all are aware of the 
initiative the Secretary rolled out last week in Washington and 
I rolled out in St. Louis last week. It is called our Homeland 
Security Information Network. I am on my way to Florida and 
other places across the country to initiate that program and 
improve what I would call our ability to communicate and share 
information.
    To the point that you asked, ma'am, regarding 
interoperability, that is a concern of ours, but the lead 
agency for that piece of communications, info-sharing, is 
science and technology. But I will turn my attention now to 
attempt to address your questions regarding wireless. But when 
you mention that word, interoperability, what is to me is I am 
a user of technology, and the technology wizards are in S & T 
and not in my shop.
    But I do want to just briefly talks about GETS, which I 
mentioned earlier, which is about the land side, and the WPS, 
what is the cellular side. I just want to cover key points that 
I put together in my notes, appreciating the fact that you 
would have questions on this.
    The goal of the Wireless Priority Service, or what we call 
WPS, is to enhance the Nation's cellular telephone 
infrastructure with priority capability that gives national 
security and the emergency preparedness community priority 
communications at all times under all circumstances. The WPS is 
designed to provide critical users a high probability of call 
completion during periods of extreme communication network 
congestion; for example, during 9/11, major hurricanes, storms, 
or, God forbid, another terrorist attack.
    The wireless infrastructure in the United States consists 
primarily of two technologies offered mainly by the six major 
nationwide carriers and almost equally deployed. The global 
system for mobile communications, GSM, for AT & T Wireless, 
Cingular Wireless, Nextel and T-Mobile, and Code Division 
Multiple Access, we call CDMA, for Verizon Wireless and Sprint 
PCS, just to give you a sense of what we are after in terms of 
land and cell, and then who is doing that and who we expect to 
complete those actions.
    Ms. McCarthy. Mr. Secretary, I appreciate that knowledge, 
and I would be happy for you to just get that to me to read 
thoughtfully and also have available for my conversations with 
my first responders at home.
    General Libutti. Yes, ma'am.
    Ms. McCarthy. Speak to me about how confident you are about 
achieving this and when, because you are right, when you 
mentioned storms, during a severe ice storm a couple of years 
ago in my community, my fire and police could not talk to each 
other. They wanted to help out, they ended up using their cell 
phones.
    General Libutti. Yes, ma'am. Again, my New York experience 
brings me to that same conclusion. At State and local levels 
that needs to be improved and improved with a real strong 
energy, strong vector at let's make it work.
    Back to a point I made earlier. The S & T folks are looking 
across the country at all technologies off the shelf, what the 
future looks like, and they are the ones that are providing the 
technology advanced concepts in support of folks in the cities 
and States. My job, again in support of science and technology, 
is to be a good listener in terms of what first responders are 
saying and to hold that up against the threat. So technology 
and supported communications interoperability must make sense 
in terms of what we know about the tactics, techniques, and 
operational capabilities of the bad guys. So that is my role in 
that.
    Ms. McCarthy. I appreciate that role.
    General Libutti. I want to just cover something, if I may.
    Ms. McCarthy. Let me just suggest something to you, sir, 
out of respect to time and the other concerns of the committee.
    I appreciate that you are a good listener; I know you are. 
I would like you to be a big bell ringer. I would like this to 
become a priority, not just in the science and technology end, 
but in your end as well, because really, truly, that is the 
number one issue I hear over and over again from the first 
responders, is the need for that. And I believe we need to make 
it a priority, and I would like your involvement in that goal.
    General Libutti. Yes, ma'am. I do want to cover if I may, 
Mr. Chairman, just continue very quickly, and again it is just 
stats that I put together to share with you.
    In terms of the GETS program, currently there are 
approximately 82,000 users of that program. In the wireless 
program that we refer to, the priority service currently, 3,000 
users and rapidly growing operational in terms of the T-Mobile 
network, AT & T Wireless, and Cingular, we expect to come up 
this June, and Nextel this fall. Verizon and Sprint will 
provide those same services not later than 2006. Again, we will 
provide all of this to you upon request.
    Ms. McCarthy. Well, it is 2004, and let us hope it does not 
take until 2006, sir. I very much appreciate your enthusiasm on 
this issue.
    General Libutti. Yes, ma'am. I appreciate it.
    Ms. McCarthy. I yield back.
    Mr. Pascrell. Mr. Chairman, would you yield for 30 seconds?
    Mr. Gibbons. The gentlewoman's time has expired, but 
without objection, we can yield to you for 30 seconds.
    Mr. Pascrell. I just listened to the conversation, and 
there is a zero amount of money budgeted for interoperability. 
So we are talking out of both sides of our mouth here, before 
we go any further. Thank you.
    Mr. Gibbons. Very good. Mr. Secretary, you do have an 
opportunity to respond to the comment since it was made.
    General Libutti. Well, sir, again, at the risk of beating a 
dead horse, my charge is the Intel piece and the infrastructure 
protection piece. I am very confident, having testified Tuesday 
with Dr. Chuck McQueary, that he and his folks are indeed on 
top of the interoperability science and technology application 
to help first responders.
    Mr. Pascrell. It is still zero.
    General Libutti. Sir, I will share with Dr. McQueary your 
concerns.
    Mr. Camp. [Presiding.] The Chair now recognizes the 
gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you very much. Mr. Secretary, I was 
looking at your bio and I was thinking we are very fortunate to 
have you, and I was thinking of all of the other folks like 
yourself who want to be of service in this Department. I also 
was thinking, as our former chairman was there, he helped 
initiate the effort of the Department of Homeland Security, it 
came before my subcommittee when we established it, and it is 
amazing how much has been accomplished in a short period of 
time.
    But my questions are--so when I ask these questions, I want 
to put them in the context of we have come so far, but we have 
so far to go. I also want to say that we had your Department--
your part of the Department represented last year and it was a 
very unfortunate dialogue. We learned you had not yet been--the 
analysis side had not yet had their facility, we learned that 
there were not many people. You have Information Analysis and 
Infrastructure Protection. Under Information Analysis, how many 
people do you have?
    General Libutti. Again, I will look through my notes. I 
think we are just short of 90 people, sir.
    Mr. Shays. Okay. That is an approximate; much better than 
where we were.
    General Libutti. Oh, yes, sir. Again, as you said earlier, 
I am a team player, Coach--
    Mr. Shays. I do not want to spend too much time on that. 
You are much better than where you were. So can we leave it at 
that?
    General Libutti. Well, with all due respect, I just again 
want to signal to everybody that I look at it as one team. For 
dissecting organizational tasks, it is IAIP Op Center. I have, 
as I said, my total number--.
    Mr. Shays. I am running out of time here. I am sorry. You 
have made your point. I do not think you need to make it again.
    General Libutti. Yes, sir.
    Mr. Shays. But what I want to do is I want to get into the 
warning system. It is one part that you have, and I want to ask 
you right now, are we at green, blue, yellow, orange, red; low, 
guarded, elevated, high, or severe? Where are we at right now?
    General Libutti. Sir, as you know, during the holiday
period--.
    Mr. Shays. I want to know right now. Where are we at?
    General Libutti. We are at yellow, sir.
    Mr. Shays. Right. And the reason I am asking that question 
is why are we at elevated? Why are we at elevated instead of 
guarded?
    General Libutti. We are at elevated because as those of us 
in the business of intelligence analysis, making 
recommendations and advice and protecting the homeland, there 
is absolutely zero doubt in my mind that the intent of Al-
Qa`eda and other terrorist groups has not changed and they are 
hell-bent on bringing the country down. They have talked about, 
and we have collected information that indicates that they--.
    Mr. Shays. I hear you on that. Explain to me, though, if 
you could, why would that not be the general risk of a 
terrorist attack?
    What concerns me is you are already at that level of 
yellow, so you only give yourself one before you go to 
basically red. And I just wonder, because I feel right now that 
we are functioning under a guarded position, that there is a 
general risk of a terrorist attack, and I think that is how the 
public is functioning. We all know there is a general risk. I 
guess what I would love to know is whether--and I would like 
you to review that on whether we should not be back down one 
level. Because when you go to orange, my point is, and I am 
getting to this point, when you go to orange, you are basically 
saying that there is a high risk of a terrorist attack. But the 
same message we are getting out of your Department is, it is a 
warning to the people who can protect us, but it is not a 
warning to the general public, and I do not understand why when 
we go to orange it should not be a warning to the general 
public. I can understand if you went from--I am sorry, just 
from basically guarded to elevated, you know, but when you go 
to high. So if you could tell me why.
    General Libutti. My first step moving to answer your 
question, I ought to start by sharing with you my view relative 
to the two points you made. You talk about risk and you talk 
about threat. The threat is the threat, and I talked about that 
by saying there is no doubt in my mind that intent has not 
changed. The threat is serious. We see actions that reflect 
that overseas. That is why we see the administration and our 
great, beloved military taking all appropriate actions to 
charge on a second front and bring people to justice, et 
cetera, et cetera.
    But when you hold up risk assessment and the 
vulnerabilities that we identify when we look across the 
country at what I call centers of gravity and key target sets, 
and then we, with our friends and partners and industry and 
local and State authority, take those actions, preventive, 
protective actions, you take a risk--excuse me, a threat, you 
take actions, and you reduce the risk to those facilities and 
the American people. You do not take a threat and apply it to a 
situation. If you have taken measures and call that threat when 
you see it a 10, you call it a 10 when it gets to a target set. 
I am trying to define in simple terms the difference between 
ongoing threat, terrorist intent, and how we mitigate that 
threat by taking action.
    Mr. Shays. I am trying to understand why we are at elevated 
as opposed to guarded.
    General Libutti. We are at elevated, sir, because the 
threat is real. The threat is real.
    Mr. Shays. But wouldn't the threat be real if we were at 
guarded?
    General Libutti. Well, I think again, the gradations, the--
if I could say the ``shades of color'' would simply indicate 
the requirement to be more aggressive in terms of--.
    General Shays. I am just going to then renew my point. I 
would love you all to look at this a little differently. I 
think when you--we are going now in a guarded way. That is how 
the public is functioning. I think even that is how a lot of 
our local folks are. And I think you do not give yourself 
enough levels. And when you read what orange is, that tells me 
that it is more a warning not just to our law enforcement 
folks, but it also should be a warning to the general public. I 
do not think we should hear from the Department when we go to 
high that you should just do what you normally do. I think that 
is not wise, and I think it prevents us from doing responsible 
things.
    General Libutti. Sir, I hear you loud and clear and I 
appreciate your point, and I agree with you. I would only--if I 
may add a footnote. We do our very best to look strategically, 
operationally and tactically at what the threat means, we look 
at the actions we have taken and we try to assess what the risk 
is to a city, a county, a State, a facility. Again, I share 
with you parenthetically, having served in New York, this may 
be pretty sensitive to this next point. Our job is to share 
that information with State and local leadership, governors, 
mayors, our police chiefs, not to tell them how to suck eggs in 
terms of whatever decision they decide to make relative to 
actions in that place, particularly involved in communicating 
the threat in that city or region to the people of that area.
    Mr. Camp. Thank you, Mr. Secretary. The time has expired.
    The gentleman from New Jersey, Mr. Andrews, is recognized 
for 8 minutes.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your time.
    General Libutti. Sure.
    Mr. Andrews. If a State trooper in Ohio stopped a car along 
Interstate 80 right now and the driver of the car was on the 
terrorist watch list maintained by the CIA, would the State 
trooper know that?
    General Libutti. Well, he does not know it instantaneously, 
sir. What he does is, through his dispatch, gets back to the 
terrorist screening center. The terrorist screening center will 
provide appropriate inquiries to a database or to a watch 
list--.
    Mr. Andrews. I would assume so. Let us assume that it is an 
ordinary vehicle stop, just for speeding. The trooper has no 
idea of anything other than that. And let's assume for the 
moment that the trooper has a laptop in his or her car for 
local law enforcement purposes. Would the laptop give the 
trooper information to the terrorist watch list?
    General Libutti. You present an interesting scenario. Given 
the threat across the country, and from what I know police 
departments have done in educating and training and making 
their cops aware, I would put money on the fact that that cop 
would be very suspicious relative to any incident or situation 
of that nature and probably mind his manners, quite frankly, in 
terms of privacy and civil rights. But he is going to be as 
aggressive as he needs to be to follow up on what his intuition 
and professional training has indicated he needs to do.
    Mr. Andrews. I agree with that, and I think that is very 
characteristic of police officers and I am grateful for that. 
But would the officer have access to the CIA watch list?
    General Libutti. The officer--again, I am sharing with you 
a process, sir. If he is concerned and wants an inquiry into 
the watch list or database, there is a system in place to do 
that and, normally, he or she would contact their dispatcher 
electronically back to the terrorist screening center in 
minutes, not hours; there is a turnaround of that information, 
and the gentleman or lady on the beat makes the judgment.
    Mr. Andrews. See if you can walk me through that. So let's 
say the trooper, if the trooper had some reason to suspect that 
he or she should ask the question, the trooper would have to 
either e-mail in or call in to the dispatch.
    General Libutti. Probably call in or if they have a 
computer within the vehicle, they would use that system.
    Mr. Andrews. Does the dispatch have the authority to get 
the information from the terrorist watch list? Does the Ohio 
State police dispatch?
    General Libutti. Yes, sir, again, following the process, 
following the procedures.
    Mr. Andrews. What are the procedures? Tell me what happens 
between the dispatch and the terrorist watch list. What hoops 
do you have to jump through?
    General Libutti. I am not sure, sir. This is difficult or 
challenging, as you might think. But again, in simple terms, 
the cop on the beat works through his operation center, 
probably electronically nowadays, that information is passed 
back to the terrorist screening center that is really the 
advocate and single point of contact for the cop on the beat. 
The terrorist screening center exercises its responsibilities 
and makes inquiries into watch lists or the database status, 
whatever that may be, does appropriate--asks appropriate 
questions, gets the answers and passes it back to the cop on 
the beat.
    Mr. Andrews. How long does it take?
    General Libutti. I think it depends on the situation. It 
is--.
    Mr. Andrews. What is the shortest time, what is the longest 
time?
    General Libutti. I will get you that information in terms 
of all of what I have indicated where over 1,000, I think I 
said earlier, 1,388 calls made and 527 positive matches. I 
would be happy to do two things, sir: give you whatever 
specific data we have, and two, provide you with appropriate 
slides, a detailed briefing on the interaction of the terrorist 
screenings.
    Mr. Andrews. I would like to know the time range, what is 
the shortest period of time, what is the longest period of 
time.
    General Libutti. I would be--it would be premature for me 
and not wise to tell you 5 minutes, 6 minutes.
    Mr. Andrews. Sure.
    General Libutti. I think it truly and very sincerely 
depends on the situation, circumstances. One of the points I 
made earlier when first questioned on this caused me to respond 
in a way that I will just again summarize. We are making a 
valiant effort and a noble effort to purify watch lists. Same 
name, same initial, different date of birth, other complicating 
details. That is part of the challenge, but it is working to 
purify watch lists and bring those watch lists into a database. 
That is going very well.
    Mr. Andrews. Let me ask your opinion about something, and I 
ask this question without prejudice.
    General Libutti. Yes, sir.
    Mr. Andrews. Do you think the day should come when an 
officer has on his or her laptop the watch list, has access 
electronically to it? Should that trooper be able to enter in 
whatever identifying characteristics he or she has of the stop 
and just get the information instantaneously?
    General Libutti. I think that is a terrific question. I 
would be prone to, given my background and experience, to take 
it on board and bring in duty experts from the police 
department and kick it around, as well as those charged with 
safeguarding extremely sensitive information and making every 
effort because of this great challenge we have of maintaining 
the balance between privacy and civil rights, individual rights 
as well. I would just want to make sure whatever system we put 
in place was darn near perfect in terms of protecting 
individual rights and privacy, and that we need to be very, 
very careful with all of that.
    But the operational response is when in doubt take 
appropriate police action to safeguard the country and the 
American citizens. So again, I would be very happy to provide 
you details on this through my staff. Again, the FBI runs this. 
We have provided the Assistant Director For the Terrorist 
Screening Center, and we will contact him and pry out 
additional details.
    Mr. Andrews. I appreciate your concern about civil rights, 
and I certainly share it. I do not think that anybody should be 
restricted in their liberty if we just are suspicious of them. 
That is not our law, that is not our tradition. But I also 
think that if there is a significant body of evidence that 
someone is being watched, that law enforcement officers ought 
to know that, because it is a piece of the puzzle that they can 
help put together--.
    General Libutti. I agree with you, sir.
    Mr. Andrews. That might help prevent a catastrophe.
    General Libutti. You are right, and while what I am going 
to say does not support your example, I can tell you from my 
experience again with NYPD, the people who know the community 
and the area and the cops and first responders, it is not the 
guys at the Federal level, and that is why this partnership is 
so critical.
    Mr. Andrews. It is also why I share Mr. Pascrell's view: we 
have to get some money in the budget for interoperability. I 
know that is not your call, but it is really important. Thank 
you, Mr. Chairman.
    Mr. Camp. Thank you. The gentleman from Arizona is 
recognized for 5 minutes.
    Mr. Shadegg. Mr. Under Secretary, thank you for your 
testimony today. I appreciate it. It is helpful to us.
    I want to follow up on that line of questioning. I think we 
are all interested in actually the two-way communication 
between you and the cop on the beat and between the cop on the 
beat and you. In a minute I want to go into some staffing 
levels and find out how adequate you feel you are staffed, 
which I understand you have touched on already. But first let 
us talk about the question that was just raised.
    In response to the issue of whether or not the officer on 
the street should be able to get on his laptop and access this 
list, you said that you would talk to experts in the field and 
analyze that issue and express your concern about privacy, and 
I think there is a valid concern about privacy. My question of 
you is, are you currently discussing, or do you have an ongoing 
analysis effort, to look at how functional that line of 
communication currently is; that is, we hear from our local 
police, look, you know, we cannot find out who the terrorist 
is; we worry that we might stop a terrorist and let her or him 
go. We are not sure that we are getting communication from the 
Department on these issues.
    So I guess my first question is, hopefully a softball, are 
you guys studying this? Do you have an ongoing effort working 
with local police and State agencies to try to find out what 
would work, and how fast does it have to be to be functional?
    Generalal Libutti. The answer is absolutely, sir, yes.
    Mr. Shadegg. So it is a softball, good.
    General Libutti. Seriously, I mean again, you have to 
understand, I say this with great humility and respect for law 
enforcement and first responders. I mean this is where it is 
happening. That is where they are going to interrupt, disturb, 
detect, bring to justice these folks, so I mean my head and 
heart are there.
    Back to the point about direct communications. Let me give 
you the Frank Libutti Marine Corps response to that and 
understand it in terms of now my greater responsibility as an 
Under Secretary. We need to streamline communications, but we 
do not need to be cavalier or bullish in the way we do that, 
because there are lots of people who have equities in terms of 
dealing with the threat of terrorism.
    I mentioned earlier, I believe I mentioned earlier that I 
am very much a supporter, and it would not surprise you given 
my background, in what I call chain of command and chain of 
communications, and I do not want to cut out people within that 
chain, particularly if we are dealing with an imminent 
situation. You stop somebody, things do not look good, it is 
going south in a hurry, this could be something big, or it 
could be a routine pull-over perhaps with someone who is 
involved in supporting terrorism, but indirectly through money 
handling, laundering, et cetera. We need to be very careful 
about that. And the answer to that question I think is broadly 
speaking, conceptually, streamlined communications is a two-way 
street. Get it to people who have to take action. Track that so 
that we get a good sense of warnings, indicators, and profile. 
It all talks to surveillance and counter surveillance programs 
that we do not run per se, but the cops on the beat do.
    Mr. Shadegg. Let's flip the coin. On the opposite side of 
the coin--well, one side of the coin are their concerns that 
they may not know they have stopped a terrorist, they want to 
be able to find out, they want to be able to help in the cause. 
The flip side of it is they have observed something suspicious, 
they want to pass it up the chain. And we get the same 
complaint there, that and colleagues might get--I suspect they 
do, I know I do, and complaint might not be the right word; 
concern there, about well, we are not sure if we passed it up 
if it would go anywhere.
    General Libutti. I would hitchhike on your point because it 
is a very good point and one that concerned me tremendously in 
New York as well. To that point, as I said earlier, we rolled 
out this homeland security information network. The guts of 
that is something called JRIES. JRIES is the Joint Regional 
Information Exchange System. We did not give birth to it; it 
was something within DOD months and years ago. I used it in New 
York. When I came down to Homeland Security, I said let us look 
at that to see if we can broad base this thing to support first 
responders. We are now doing that. It is extremely effective. 
The future in my view calls for us to integrate and complement 
other network systems. But the current system right now, where 
it has been embraced across the country, right now, with a view 
towards providing to 50 States and 50 other high urban areas 
within several months, these systems, this laptop system, this 
interactive system will give people on the beat the opportunity 
of darn near zero time response. As soon as you hit it, click 
send, that is gone, and that now, from the standpoint of that 
which is in New York City, is reflected in our operations 
center on a broad screen. We know what they know. We pass it 
back to them. We share it with all other members that are 
involved in the JRIES homeland security network right now. So 
the guy in California knows what the input is Newn York has 
provided, and that goes across the country.
    Mr. Camp. Thank you, Mr. Secretary. The gentleman's time 
has expired.
    The gentleman from New Jersey, Mr. Pascrell, is recognized 
for 8 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    General you talked about wireless in response to some 
questions before, and I am not going to bring up the subject 
about what is budgeted, because that is maybe beyond someone's 
pay grade, I do not know. But I understand that. You are the 
messenger. But you are more than a messenger down on Nebraska 
Avenue. You are more than a messenger. Because you spoke in 
your entire presentation to the question about commercial 
entities.
    Understand that we are very concerned on this committee 
with public institutions, and that is why the subject of our 
first responders, police and fire, has been brought up. This is 
a critical issue. We are kind of flabbergasted as to the budget 
response. That was the whole point of the discussion, and I 
hope you understand that. It was not meant to be in any manner, 
shape, or form critical of you.
    General Libutti. I understand, sir. I appreciate your 
comment.
    Mr. Pascrell. Second point. You, throughout your 
presentation in terms of work that has been submitted, 
indicate, even in the area of personnel, not only service, but 
personnel, the hiring of personnel, you contracted out much of, 
a lot of this work. In fact, in many areas there is more 
contracted personnel than there are public personnel in terms 
of full-time equivalent employees.
    General Libutti. Correct, sir.
    Mr. Pascrell. My question is this, a very simple question: 
is this public record?
    General Libutti. I believe it is. I am a little, not taken 
aback, but perhaps do not understand your question as I should.
    Mr. Pascrell. Let me be more clear. In other words, anybody 
on this committee would be able to review any of the contracts 
that your agency has developed in terms of either service or 
personnel?
    General Libutti. I do not see why not, sir.
    Mr. Pascrell. Okay. So we would know who the private 
contractors are that you have looked to?
    General Libutti. The only concern, not in this forum, but 
in the appropriate forum in terms of specific manpower within 
the IA side, the Intel side, we need to be careful to share 
that at the appropriate classified level, and I am happy to do 
that.
    Mr. Pascrell. I understand your function and the function 
of your agency in terms of information-gathering and analysis, 
is to attempt to anticipate and then interrupt. I am 
simplifying it, and if I am incorrect, interrupt me.
    General Libutti. Well, forgive me for interrupting, and I 
only would add to what you have said, sir, to support you. It 
is about prevention, and then interrupt, deter, reaction.
    Mr. Pascrell. That is very interesting. Very briefly, the 
question of your agency, therefore, is not reactive. It is a--
if we know a series of threats exist, we may suggest, we may 
not only try to interrupt those threats; we may act to try to 
remove the threats in the future. Therefore, this is more of a 
wider scope of involvement of your agency, of socioeconomic 
factors, groups that we interact with in other countries, so 
that we prevent these things from happening to change people's 
perception about America.
    General Libutti. Yes, sir.
    Mr. Pascrell. That is not an overstatement, is it?
    General Libutti. It is terrific, sir.
    Mr. Pascrell. Now, 2 years after September 11, we still do 
not have, and you have heard this today, our infrastructure 
risk assessment in terms of spending priorities, et cetera, et 
cetera. Can you tell me when this will be complete? Ranking 
Member Turner referred to this in one of his questions earlier 
today. And then give us a brief explanation as to why this is 
the case at this point.
    And then I have one other question, if I may.
    General Libutti. What I would like to open with is a 
comment that is meant to again communicate my sincerity and yet 
my energy in moving forward. The magnitude and scope of the 
challenge ahead is such that assessment, risk assessment, 
categorizing vulnerabilities, and taking action will be a 
never-ending process and program. I would say again, since I 
have been on board, since early July as sworn, we have made 
great progress in this in terms of looking across the country, 
using indicators and lessons learned from Liberty Shield and in 
concert with the private sector, State and local officials, to 
begin this grand effort, this noble effort to put our head into 
and arms around critical information. It is an ongoing effort.
    A week ago, I was privileged to be with the lieutenant 
governor in Virginia, and he grabbed me in the elevator and 
said, Frank, that list of critical infrastructure just is not 
right. And I said, yes, we have recently reviewed it and it 
needs to be updated and we are hard-charging to do that.
    The point I am making, sir, with all due respect, is that 
this is a tremendous challenge, one that will never go away in 
terms of, you take your pack off. So I would simply tell you 
that there is an ongoing, aggressive effort to look at the top 
priority target sets and take protective action in terms of 
working with the private sector.
    Mr. Pascrell. One more, General. Please follow me.
    Before 9/11, there was intelligence that went from Federal 
agencies, CIA, FBI, to the FAA about individuals, specific 
individuals that we were targeting, focusing on. We do not know 
clearly, and maybe the 9/11 Commission will bring this forward, 
we do not know clearly whatever happened to that information 
from the FAA, and I am sure they have been questioned on this, 
and we will learn about this. We know just very little.
    How often do you actively communicate with senior 
intelligence officials from the CIA, the FBI, the DOD, the 
State Department, to go through difficult interagency problems 
such as information-sharing, and defining lines of 
jurisdiction. There are a lot of questions at least hinting to 
that. Do you ever meet as a group, for instance?
    General Libutti. The answer to all of those questions is 
yes, yes, and yes. I talk to folks every day in the 
Intelligence Community across those agencies. Pat Hughes, 
General Hughes, the Assistant Secretary for Intelligence, talks 
to TTIC several times a day, the FBI, the CIA, DIA, State 
Department contacts. And others across the Federal Government. 
Pat Hughes holds within the Department of Homeland Security 
meetings every month with members of the intelligence team in 
the Department of Homeland Security.
    Now, let me pause and tell you what I mean by that so you 
get a good sense. When we brought all of the agencies together, 
they came in, they had their operational element, and they had 
their Intel teams to support their mission profile. This had 
not gone away, and properly so. Pat Hughes, as the Intel 
officer for the Department of Homeland Security, has exercised 
his leadership in tremendous fashion, bringing together the 
leadership and the intelligence business across the Department, 
and he does that regularly. That reinforces the notion that the 
center of gravity, the center of the universe in terms of 
advice and sharing information at a senior level is happening 
repeatedly, very aggressively, and productively.
    Mr. Camp. The gentleman's time has expired.
    Mr. Pascrell. Thank you.
    Mr. Camp. Thank you.
    Mr. Secretary, looking at the IAIP Directorate as a whole, 
can you give some examples about how the information-sharing 
and intelligence programs are aiding this critical 
infrastructure protection effort?
    General Libutti. Sir, I can, and I shall. I would tell you, 
as I mentioned in the opening statement about the Information 
Operation Center, and I will try to again summarize this and 
then I will respond to additional questions.
    The centerpiece of what I do is information-sharing/
intelligence. The other piece of that, is to take appropriate 
action to protect the infrastructure of the country and then 
advise appropriate leadership.
    Key point: information-sharing. The operation center for 
us, and I am privileged to tell you that General Matt 
Broderick, retired Marine works for me. He runs the operation 
center. But he is in charge of the Secretary's operation center 
and not my operation center. That operation center is indeed, 
as mentioned earlier, the nerve center for communications. And 
in that regard, it is through the operations center that 
inquiries are made, advisories, bulletins, and alerts to our 
customer base across the country are sent out and received. In 
addition to that, there are frequent conference calls, secure 
VTC with our friends at the White House, other members of the 
interagency, and State and local officials as well.
    The operation center conducts itself on a 24/7 basis. It 
has representation as liaison to other organizations to help 
with information flow and sharing of that information. So you 
have agencies represented in the operations center from Federal 
Government organizations, DOD, FBI, State, local police. During 
the holiday period, we had detectives from NYPD and California 
sitting with us. During the holiday period, given the threat 
and the credibility of that threat, under our leadership in 
IAIP and the blessing of the Secretary, we sent executive teams 
to several locations across the country to meet with mayors, 
governors, police chiefs to share with them real-time, face-to-
face what we knew about the threat and recommendations that we 
thought should be put in place. It gives you a broad overview 
of how important information sharing is.
    I would only add this footnote, and I am repeating myself. 
The guts of what we do in terms of the Web-based connectivity 
stream is the homeland security information network. That is 
good to go now, will improve in terms of the expanded 
capability in the future. The JRIES program, the guts of that 
worked very well. In the future, this homeland security network 
in terms of sharing critical IAIP information will go from 
unclassified law enforcement-sensitive by the end of the year 
to a classified, secret level information-sharing system.
    Mr. Camp. To follow up on that, I have seen figures that 98 
percent of our critical infrastructure is in private hands, and 
clearly there needs to be a collaborative effort between the 
Department and the private sector, and I know that the ISACs, 
the information sharing and analysis centers, have been created 
to share information on threats and vulnerabilities. I wonder 
if you could just comment on the progress those have made. I 
realize there are some challenges that remain, particularly 
communicating with industry on activities being set up by the 
Department and other items.
    General Libutti. Yes, sir. It gives me a good chance to 
brag a bit on the leadership and aggressive spirit of Bob 
Licouski, Assistant Secretary for Infrastructure Protection, 
who has my full confidence and is indeed charging ahead. I want 
to comment a little bit on this ISAC business so you understand 
how I feel about it.
    This organization or group of people is absolutely central 
to information sharing and the high expectation we have that 
they will be leaders within the industry to bring the industry 
together, not simply to pass information. Having said that, Bob 
is looking on my behalf into how we can look at ISACs and 
broaden their capability and responsibility as true capital L 
leaders in the community. We think they can do more. We think 
they have done a super job. But we need to, I think, reorient 
perhaps their direction and their influence.
    To that point we have brought together what is called the 
ISAC Council, made up of senior representatives across all 
communities, and we are posing that very question to them, 
soliciting their advice. But we are focused on improving what 
is now a good system and making it an outstanding system. So 
again, key point. They are critical. They have to play. We are 
looking at ways to make their contribution even greater.
    Mr. Camp. Thank you. I see my time has expired.
    The gentleman from Rhode Island is recognized for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary. Thank you for being here.
    General Libutti. Yes, sir.
    Mr. Langevin. Let me begin by following up on some of the 
things that Chairman Cox and my colleague Mr. Pascrell have 
already touched on.
    As you can tell from the questions that are coming from the 
committee, there is still a great deal of concern, even 
confusion, over the relationship between DHS and the rest of 
the Intelligence Community, and I am sure there is probably 
going to be a recurring theme until we are confident that that 
relationship is seamless. We ask for obviously your cooperation 
and your indulgence in trying to work with us to get through 
this.
    But in particular, my question centers on the creation of 
TTIC and the terrorist screening center, which perhaps seems to 
again have muddied the waters when it comes to the roles and 
responsibilities of key counterterrorism units.
    So my question is, and perhaps you have already answered in 
some way, but do you share any of this confusion? Do you see 
any concerns that we should be aware of, and do you think it 
would be helpful to have a written presidential directive 
clarifying the roles and responsibilities of IAIP, TTIC, TSC, 
CIA, FBI, and the rest of the Intelligence Community?
    General Libutti. I have already made the comments in 
response to your question to other members, and if you will 
permit me, I will sort of summarize that as opposed to going 
through a long list of that which I think is critical, but I 
will be prepared to stand by for that, sir.
    We are a new organization. My feelings, and I am a guy who 
sees things half full, not half empty. If I get any sense from 
any member of the Intelligence Community that is not treating 
us with appropriate dignity and respect and understands that we 
are full players, I take appropriate action. And I have not 
hesitated in the past to do that.
    Now I tell you that not to be so bravado, but to tell you 
as a footnote I have not had to do that much. I tell you that 
the leadership of the FBI, CIA, TTIC and the rest, including 
DIA, they get it. They understand the responsibility of the 
role that we shoulder.
    Where there has been, if any, problem along the way is with 
some younger folks who do not understand the changing culture, 
perhaps have not read the Homeland Security Act, but when they 
are instructed, when they are coached, they get it. But I can 
tell you that for the time being at every turn we are going to 
have to ensure that we do not miss the opportunity to inform 
people of what my mission is, what the mission of Homeland 
Security is, and make darn sure they understand that this is a 
team effort.
    So I do not know if that answers part of the question, but 
I have--I mean we do not live in a perfect world. I mean even 
great organizations across the country, the Federal Government, 
all branches of government, certainly would admit in an open 
and candid discussion that they can always make improvements to 
either the decision process, administration, logistics, 
whatever. And we are in the process of doing that. And you have 
my guarantee we will continue to improve the system. But the 
bottom line is the system is working. And I say that in terms 
of TTIC and the terrorist screening centers. Lord knows, it is 
only in its first phase of standing up and being fully 
operational. And I will be happy at any point in time to come 
back one-on-one or send my staff to meet with your staff, sir, 
to share with you the status of progress being made.
    Mr. Langevin. I guess one particular point, just in 
following up, is there any information that TTIC receives that 
DHS does not?
    General Libutti. Well, I need to be careful with that, and 
I say this sort of tongue in cheek, you don't know what you 
don't know. But I know what the Homeland Security Act says, and 
it says I have unfettered access to all intel.
    Part of the challenge in the past and probably that which 
merited correction and we took it was when we started IAIP up--
and I might add we just moved into a new building, and I invite 
you all and your staff to come visit us. It is at the NAC. It 
is the same facility, but it is a renovated building.
    Back to my point, initially, we did not have electronic 
connectivity with databases across the intelligence community. 
That has been fixed. So perhaps that is one of these small 
boulders that we circumvented to move forward; and we have done 
it quite well, in my opinion.
    We are always looking for ways to improve, we always try to 
be better listeners, but we act, behave and expect respect from 
the intelligence community as full players.
    Thank you, sir.
    Mr. Langevin. Thank you, Mr. Secretary.
    I see my time has run out. I will forward another question 
to you for the record, basically asking you if you could 
explain what information DHS has collected from States and the 
private sector regarding risk assessments and describing how it 
is being used by DHS to build a priority list, but I will 
submit that to the record since my time is expired.
    General Libutti. We will be delighted to respond. Thank 
you, sir.
    Mr. Camp. Thank you, sir.
    The gentleman from New York is recognized for 5 minutes.
    Mr. Sweeney. Thank you, sir.
    General good to see you again.
    General Libutti. Good to see you, sir.
    Mr. Sweeney. As a fellow New Yorker, I will try to be 
direct and to the point, as you always are, and I am going to 
maybe beat a dead horse but continue down the same line of 
questioning, with the hopes that I think you understand it, but 
other people understand in the intelligence community--.
    General Libutti. I understand, sir.
    Mr. Sweeney.--the concern that we have over the ability of 
TTIC to incorporate itself into and be a useful process with a 
great deal of confidence being gained by Members of Congress 
and the American people, and I think that the key to that is--
and I know the Chairman has mentioned this before. I was going 
to talk to you about personnel levels. I know you have answered 
those questions, and you are going to get back. But the key to 
this really is--and I want the world to understand it--that you 
have got to be the guy in charge. We all believe that here in 
this body, and I don't believe other people believe that.
    I think there are some written comments that I would like 
to cite just because I am very concerned when I read them.
    In a February 27th article on Fox News, John Brennan, the 
Threat Center Director, said, quote, do you really want to give 
this new organization, Homeland, the responsibility for setting 
up with secure communications systems and networks and having a 
fully trained, analytical cadre? No, you don't want that. What 
you want to do is tap into the capability that already exists.
    Now, the latter part of that I agree with, but it seems to 
me that there is a public resistance to the ideas or the 
intentions that I think Congress had when we moved forward and 
established the Department of Homeland Security.
    Later in the article, Vince Cannistraro is quoted as 
saying--and I know he is not (he is former, retired), but he is 
highly respected. Quote, it is a joke. What do you gain by 
having DHS intelligence?
    Now we have been here before and seen this. It is culture. 
We get it. We all knew it coming into the process, and I urge 
you, I guess, to be blunt and be a New Yorker, to throw your 
weight around. You need to justify your contributions. You also 
need to justify why you need to be in the game in TTIC, and you 
will have a lot of support here on both sides of the aisle, I 
would point out.
    I want to get to just very quickly some more ministerial or 
tangible kind of questions.
    Providing State and local officials--other colleagues have 
asked this--security clearances, secure communications and 
storage--and we see resistance on just the broader sense, so 
this may be an impossible question for you. How are you going 
to pay for it? Is it all coming out of IAIP? Is it shared by 
somebody else?
    General Libutti. The appropriate response is that, 
initially, in support of the Homeland Security Information 
Network, that is $11 million to support 50 States and 50 other 
urban areas. It is a combination of monies. My recollection--my 
staff no doubt will pass me a note if I miss the mark on this, 
and I will share it with you, sir, but I believe it was--the 
lion share of that money came out of IAIP because we could 
afford to do it in 2004 and additional funds from the office of 
domestic preparedness, if I am not mistaken.
    We think this is a great first move forward. We will look 
now, in terms of what I call the deep fight, what are we going 
to do in a couple of years in terms of this system. Given that 
technology is turning over so rapidly and my intention is to 
provide the first responders the best available, we have got to 
figure out--because this is nobody's, what I call in my own 
language, cost center line, that program money to support that, 
but it was an initiative we thought was absolutely critical. We 
moved out on it smartly, and it has been well received across 
the country thus far. The implementation of that will probably 
hit the street in early summer.
    Mr. Sweeney. Let me get to two real kind of tangible things 
as it relates. On the $11 million, what do you think the 2004 
number is in terms of how many clearances you are going to be 
able to have successfully completed?
    Secondly, I just left the Approps Subcommittee hearing with 
the Secretary, and this issue came up as well of the context of 
communicating between the varying levels of government.
    I would like to work with your staff at identifying other 
resources that may be available both in and out of DHS, and to 
some degree that is a tough place for you to go, but we need to 
have some ideas. And, I think your partners in TTIC could be 
helpful in this, and it may be a suggestion that in the 
appropriations process we may be able to pursue. But, more 
directly, a ballpark number, how many local and State 
clearances you think you will have done by 2004, end of 2004?
    General Libutti. The short answer and correct answer is I 
don't know. The clearance piece and the funding for that is not 
coming out of my shop. I am not the lead for clearances, sir. I 
will take that back and put it in the right department.
    Again, my job is, as you have heard me say, support the 
first responders, support our customer base, talk to the 
threat, deal with the infrastructure protection, but I will 
take that back.
    Mr. Sweeney. And we may need to strengthen that. There is 
great concern and has been great concern that first responders 
have been out of it, and you are the guardian angel there.
    Mr. Camp. Thank you. The gentleman's time has expired.
    The gentleman from Washington is recognized for 5 minutes.
    Mr. Dicks. First of all, I want to apologize for not being 
here for your testimony, because I am ranking on an 
Appropriations Subcommittee and was on a much less exciting 
issue than this, but thank you for your good work and effort.
    Let me ask you a couple of things. In the new DHS strategy 
document--you may have covered this, but please bear with me--
released last week, the Department says that it will have a 
complete database with a prioritized critical infrastructure 
list by the end of 2004. It is unclear, however, who is 
spearheading this work at an operational and analytical level 
within IAIP. Can you tell us who is spearheading that?
    General Libutti. Well, I am in charge of IAIP, and Bob 
Liscouski, as Assistant Secretary for Infrastructure 
Protection, is the lead for me in that regard, sir.
    Mr. Dicks. Okay. Let me ask you specifically, have the 
States sent in a list of critical infrastructure? Because the 
State of Washington I know not only have they sent in a list, 
but they have got a plan. I believe each State should have the 
first crack at developing a list of critical infrastructure in 
their State and to come up with a plan and submit it to the 
Department. Now, is that being done?
    General Libutti. It has been done, sir. Plans were 
submitted including that information among lots of other things 
they submitted by our request. They were due the end of 
December. Plans were received. Washington's plan was absolutely 
superb.
    Mr. Dicks. I couldn't believe how comprehensive it was.
    General Libutti. It was tremendous, and if we had time, I 
would show you all the plans.
    But I would tell you this. One, some of the plans were sent 
back for tweaking to help us help them, but the plans are in. 
The Secretary appreciated it tremendously, and it is the first 
step forward in what I used to complain about--let me restate 
that. My concerns in New York were that--and they fixed this, 
by the way--that the need for a strategic plan that brought 
together cities and towns across New York State with a focus on 
priorities, with a focus on ecumenical approach to the 
challenges at hand that dealt with money, that dealt with how 
we deal with that which in the infrastructure category really 
needed to be top, top priority.
    So I am absolutely delighted that the States, based on the 
leadership of the Secretary, Secretary Ridge, have supported 
this business. A strategic plan is the basis to bring the 
country together in terms of looking at resource requirements, 
prioritization, a blueprint for moving forward. I mean, I 
applaud it; and, again, I recognize the great work--.
    Mr. Dicks. Good. My time is very short here, so I don't 
mean to cut you off. Are these plans going to be utilized by 
your Department in developing this database? I certainly would 
hope they would be.
    General Libutti. Sir, the name of the game is--am sure you 
have said this a million and one times in the leadership you 
demonstrate every day. It is about partnership, and we will use 
all of the information within those plans to frame, to shape 
and to make appropriate decisions on infrastructure, on 
intelligence, information sharing and in any other area in my 
directorate that I have responsibility for.
    I would tell you that in the infrastructure business what 
we have realized is you have got to look at the physical and 
the cyber; and what I have learned in the 6, 7 months I have 
been with the Department is that there is incredible 
interdependency across industries. You can think of any one 
industry and think about if you had catastrophic failure in one 
industry, what would the impact be on the other and how would 
that affect the small towns and big cities and the industry at 
large across the country? So I am with you a hundred percent, 
sir, and I appreciate it.
    Mr. Dicks. The other thing is on the national cyber 
security division. You know the President has laid out his 
vision here, the national strategy to secure cyberspace. But is 
it being properly funded?
    It says the President's budget requested $60 million for 
its information warning and advisory program. This program has 
three core components: tactical indications and warning 
analysis, information requirement management, integrated 
physical and cyber structure monitoring and coordination. With 
the exception of $56.6 million allocated for the information 
warning and advisory groups for the live wire cyber exercises 
conducted by NCSD, the budget request does not specify how much 
of this total is allocated for cyber security. Can you, for the 
record, give us an indication of how this is going to be 
funded?
    General Libutti. Yes, sir, I can. In the 2005 budget, the 
information warning advisory is $23.7 million, and the remedial 
protective action program and support of cyber is $55.9 
million.
    Mr. Dicks. And you have said--going back on the 
infrastructure--the database will be completed by the end of 
2004. Is that calendar year or fiscal year?
    General Libutti. Say the statement again, sir. The end of 
2004?
    Mr. Dicks. Yes. It says a complete database with a 
prioritized central infrastructure list by the end of 2004. The 
Department says that it will have it complete.
    General Libutti. It is by the end of the calendar year, 
sir.
    Mr. Dicks. All right.
    Mr. Camp. The gentleman's time has expired.
    I want to thank the Secretary for being here. This joint 
subcommittee hearing is now adjourned.
    General Libutti. Thank you very much, sir.
    [Whereupon, at 12:09 p.m., the joint subcommittee was 
adjourned.]


                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

 Please: note: Under Secretary Libutti departed DHS February 1, 2005. 
  Matthew Broderick, the Director of the Homeland Security Operations 
        Center submits the following responses on behalf of DHS.

         Questions for the Record from The Hon. John B. Shadegg

    Undersecretary Libutti, the State of Arizona is establishing a 
fusion center for intelligence this May that will be officially called 
the Arizona Counter-Terrorism Information Center.

Question: 1. Are you aware of this effort?
Answer: Yes, we are aware of Arizona's establishment of a fusion center 
for intelligence. Many of the States are setting up similar entities. 
We are working to develop a coordinated effort and standards to provide 
guidelines for all states wishing to establish information centers. 
This is one of the top priorities of the DHS Information Sharing and 
Collaboration Program, and the. Office of State and Local Government 
Coordination and Preparedness.

Question: 2. How will the Department of Homeland Security interact with 
this Center? Will it have direct two-way communications?
Answer: The Department of Homeland Security has established 
communications between the Homeland Security Operations Center (HSOC) 
and all states via the Homeland Security Information Network (HSIN). We 
plan to strengthen these communications by providing connectivity up to 
the secret level in the future. To date, eighteen Law Enforcement 
Intelligence Centers or Fusion facilities have been identified to 
receive Secret level capability packages to operate at the collateral 
level. Facilities identified as key coordination and fusion centers by 
each state and that have been constructed to handle classified 
information will have priority.

Question: 3. Have other states created similar centers?
Answer: Yes, other states have created similar centers, based on state 
or regional requirements and relationships. The Department of Homeland 
Security, through the Information Sharing and Collaboration Program, 
the Office of State and Local Government Coordination and Preparedness, 
and the DHS Operations Center, is working to develop an interconnected 
and collaborative partnership between both DHS and each of these 
centers, and between and the State centers and any regional centers 
which may develop through consortium efforts of the States.

Question: 4. If so, are there any lessons to be learned from those 
efforts before Arizona's Center is officially opened?
Answer: The Department of Homeland Security has a team scheduled to 
visit Arizona this month. We will use this opportunity to provide 
advice and establish connections between Arizona, as well as other 
states.

Question: 5. In the Fiscal Year 2004 Homeland Security Appropriations 
bill, there was $10 million in funding to the IAIP Directorate for a 
command center and emergency communications network. The National 
Alliance of State Broadcasting Associations will soon complete an AMBER 
Alert network that could potentially be used for an all-alert network. 
How is the Directorate using that funding?
Answer: Using 2003 & 2004 appropriated funds, IAIP implemented the 
Homeland Security Operations Center (HSOC) capability. The HSOC is the 
primary national hub for domestic incident management operational 
coordination and situational awareness. The HSOC is a standing 24/7 
interagency organization fusing law enforcement, national intelligence, 
emergency response, and private sector reporting. As such, the HSOC 
facilitates homeland security information-sharing and operational 
coordination with other Federal, State, local, tribal, and non-
government Emergency Operation Centers (EOCs). Further, the HSOC is the 
primary conduit for the White House Situation Room and IIMG for 
domestic situational awareness.

         Questions for the Record From The Hon. Mac Thornberry

Question: 6. How is private sector interaction being coordinated and 
funded within the Department, particularly with the operational arm of 
the private sector, i.e., Information Sharing Analysis Centers (ISACs)? 
Who in the Department is responsible for coordination, but as 
important, program management and budget oversight of these varied 
initiatives? During your testimony, you mentioned that the ISACs may 
need to be re-directed in their efforts--what specifically does this 
mean, and what direction are you recommending for the private sector? 
Will the NCS funding model for the telecommunications ISAC, as noted 
below, become a model for other sectors to strive towards?
        <bullet> We are aware of a newly established TSA encrypted web-
        based communication system called the Maritime and Land 
        Security eCOMM (MLS eCOMM) that will provide for the real-time 
        exchange of Alert Bulletins, Best Security Practices, Program 
        Initiative Information, and Guidance and General Information.
        <bullet> We are aware that IA recently announced the Joint 
        Regional Information Exchange System (JRIES) that will provide 
        secure communications for state, local, and private entities.
        <bullet> We are aware of the NCSD Cyber Alert and Warning 
        system, also a web-based communication system.
        <bullet> The National Communications System (NCS) has already 
        spent millions for the Cyber Warning Information System, a 
        secure out-of-band collaboration system.
        <bullet> In addition, the NCS fully funds the National 
        Coordination Center which serves as the Telecommunications ISAC 
        for that sector, which is staffed by government and private 
        sector individuals.
Answer: Within IAIP, the National Infrastructure Coordinating Center 
(NICC) maintains operational awareness of the nation's critical 
infrastructures and key resources, and provides a common infrastructure 
for information sharing and coordination between and among government, 
critical infrastructure owners and operators, and other industry and 
private sector partners. DHS has developed and is implementing a plan 
to integrate the referenced systems into the Homeland Security 
Information Network (HSIN). The HSIN is a secure, unclassified backbone 
communications network that offers a conglomeration of ``communities'' 
and information management tools. It provides a common platform for 
communication with law enforcement, and state and local government. DHS 
is in the process of deploying the functionality of HSIN to the 
critical infrastructure and key resource sectors described in HSPD-7. 
Currently, these sectors have varying levels of information sharing 
capabilities. HSIN will provide core capabilities to bring every sector 
up to a baseline of information sharing features, which includes 
extending the ability of sectors to deliver alerts, warnings and 
advisories to more members at little to no cost to them. It is intended 
that any future information sharing system implemented by DHS will be 
an integrated component of HSIN. The Infrastructure Coordination 
Division, within IAIP, is responsible for coordination and integration 
of these initiatives as they relate to the CI/KR, and ensures 
coordination and addresses issues with and between the CI/KR sectors. 
The HSOC provides oversight to the HSIN. For the Telecommunications 
Sector, the NCS National Coordinating Center (NCC) for 
Telecommunications functions as the Telecom Information Sharing and 
Analysis Center (ISAC). This joint Government Industry collaborative 
body established in 1984 builds on the history of cooperation and 
established trust relationships to address the initiation, 
coordination, restoration, and reconstitution of national security/
emergency preparedness telecommunication services and facilities under 
all conditions, crises, and emergencies. The NCS funding model will not 
be used for other ISACs. ICD will address each sector individually, 
recognizing that each has unique characteristics and needs.

Question: 7. The IAIP budget describes IAIP and the Homeland Security 
Operations Center (HSOC) as the principal mechanism for the execution 
of all DHS programs, with focus on federal, state, local and private 
sector systems. IAIP has requested an increase of $10 million for HSOC 
upgrades to include information sharing missions (providing a total of 
$35 million in fiscal year 2005). Is any of this funding going to be 
used to help the private sector integrate their information and expert 
analysis into the HSOC? If not, how does DHS plan to work with the 
private sector as a caretaker of the critical infrastructure? Please 
provide description of specific projects.
Answer: Yes, in 2004, HSOC began the rollout of a national information 
sharing capability that is called the Homeland Security Information 
Network (HSIN). This network connects federal, state, local, tribal and 
private sector infrastructure stakeholders, enabling information 
sharing and collaboration within and among communities of interest. 
HSIN-CI (Critical Infrastructure) is a community of interest within 
HSIN that is dedicated to private sector components of the nation's 
critical infrastructure. A significant portion of the 2005 HSOC budget 
request is planned for growing the infrastructure and the reach of 
HSIN. HSOC is working closely with the Infrastructure Protection 
division of IAIP to identify and reach these private sector 
participants.

8. Cyberspace and the potential threat to our homeland through 
cyberattacks are of concern and priority for the Department. The 
Homeland Security Act calls for DHS to perform comprehensive 
assessments of cyber vulnerabilities (Sec 201 (d)) and carry out 
comprehensive assessments of the vulnerabilities of the key resources 
and critical infrastructure of the United States, including the 
performance of risk assessments (Sec 201 (d)). Risk assessment involves 
the correlation of threat and vulnerability to determine the risk to 
the nation, with IA responsible for cyber threat evaluation and IP 
responsible for cyber vulnerability assessment. The fiscal year 2005 
budget requested $79.8 million to expand the capabilities of the IP 
National Cyber Security Division (NCSD), which according to the DHS 
``implements the public and private sector partnership protecting cyber 
security as it identifies, analyzes, and reduces threats and 
vulnerabilities; disseminates threat warning information; and 
coordinates cyber incident preparedness, response, and recovery 
efforts.'' However, there does not appear to be funding for cyber 
within the IA budget request for cyber threat analysis. There is also 
confusion on which of the ``watch centers'' has responsibility for 
overall cyber threat reporting, noting that the IP
    National Communications System (NCS) operates a 24X7 
telecommunications watch center, IP NCSD operates a 24x7 cyber watch 
center, and IA operates a 24x7 Homeland Security Operations Center. The 
U.S. Secret Service also operates a 24x7 watch operation for electronic 
crimes, which is a direct mission of cybersecurity. Each has a 
significant funding request, but there is little information available 
on how these watch centers integrate cyber information for national 
threat assessment and if there are plans for eventual integration of 
these watch centers into one cohesive unit.
        <bullet> Please describe how these different watch centers will 
        be integrated to ensure efficiency and effectiveness in 
        protecting our country from cyber threats.
Answer: Currently the watch centers of the DHS/IAIP/IP divisions are 
physically separated according to function and division missions, but 
integrated in terms of information sharing. As DHS stood up, it was 
important that each division retain the 24x7 watch capabilities 
critical to their respective missions. During this time, each watch 
center has routinely collaborated with the others to share information 
and coordinate singular, integrated, and focused responses. Now that 
the divisions are more mature, IP will be integrating functions of the 
National Cyber Security Division's (NCSD) US-CERT, the National 
Communications System's (NCS) National Coordinating Center for 
Telecommunications, and the Infrastructure Coordination Division's 
(ICD) Watch into the National Infrastructure Coordinating Center 
(NICC).
    Co-located with the Transportation Security Administration, the 
NICC will provide a coordinated and seamless information sharing 
capability with the IP NICC desk at the Homeland Security Operations 
Center (HSOC) and among all industry partners associated with critical 
infrastructures and key resources.
    The U.S. Secret Service (USSS) has an Investigative Support 
Division duty desk, which supports its field investigations (cyber and 
otherwise) on a 24x7 basis. Relevant information from the duty desk is 
coordinated through USSS headquarters and through the HSOC.
        <bullet> How does IAIP interact with the Intelligence Community 
        for classified cyber assessments? Does IAIP work with TIIC for 
        cyber threat analysis? If so, how is this information shared 
        within the department for analysis and warning, as well as 
        correlation with vulnerability information provided by the 
        private sector? How is cyber threat information shared with the 
        private sector, and who has that responsibility--IA or IP/NCSD?
Answer: NCSD is working intensively with the law enforcement 
communities as well as DHS/IA to develop a comprehensive threat, risk, 
attribution assessment and response capability.
    NCSD interaction with the TIIC (in December, the National 
Counterterrorism Center (NCTC) undertook all functions assigned to the 
TIIC) is accomplished through DHS/IA, law enforcement and intelligence 
community detailees on staff in IAIP. With regard to classified 
assessments, the NCSD works with the Office of Information Analysis 
(IA) in the Information Analysis and Infrastructure Protection (IAIP) 
Directorate through our participation in IA's periodic threat 
assessment meetings and on an as-needed basis in the case of a 
particular threat or vulnerability. One example of this coordination 
was the participation of NCSD through IA in the National Intelligence 
Estimate' (NIB) ``Cyber Threat Against the Information 
Infrastructure.'' This classified document is an update of the 2000 
NIE. In addition to the regular meetings both IA and NCSD participate 
in daily conference calls with the National Security Agency/NSIRC, the 
Central Intelligence Agency, and the Department of Defense's Joint Task 
Force Global Network Operations (JTF-GNO) to discuss classified cyber 
activity of note.
    Through its mission to serve as the national focal point for cyber 
security issues and to implement the National Strategy to Secure 
Cyberspace, the NCSD is responsible for managing and issuing cyber 
advisories and warnings. Those advisories and warnings are issued to 
the public and our partners through the National Cyber Alert System and 
to specific entities on an as-needed basis in the case of a targeted 
vulnerability or threat. Information that is less sensitive and for 
wider distribution is disseminated through the US-CERT public website 
and the US-CERT secure online portal, as appropriate. The Department 
also receives various intelligence reports regarding the world-wide 
cyber security situation, but because of the central role of the United 
States in the cyber world, the locus of effort and source of nearly all 
relevant assessments are activities led by the Department and its 
partners in the public and private sectors.
        <bullet> How does IAIP determine risks posed by particular 
        types of cyber attacks, including assessment of probability of 
        success, and feasibility and potential effectiveness of 
        countermeasures?
Answer: As mentioned above, risk assessment involves the correlation of 
threat and vulnerability to determine overall risk to the nation. With 
respect to cyber threats, the US-CERT has developed a threat severity 
rating scheme and identified countermeasures for degrees and types of 
cyber attacks. That scheme is a standard, repeatable and reliable 
method to assess the criticality or severity of new or emerging cyber 
security events. Once information is received about an actual or 
potential event, US-CERT assesses its ``severity'' using a scale from 1 
to 5, with 1 being minimal and 5 being a crisis. Factors that are 
weighed in determining the 'severity' of a security event are based 
upon a matrix of factors, and appropriate countermeasures are 
considered.
    From a strategic standpoint, the NCSD is developing a set of 
guidelines on cyber aspects of vulnerability assessment for the 
critical infrastructure sectors as part of the Homeland Security 
Presidential Directive 7 and Sector Specific Plan implementations. Once 
finished, those vulnerabilities can be mapped against potential and 
emerging threats to provide risk assessments.
        <bullet> How will the Cyber Warning Information Network (CWIN) 
        that has been deployed by IP be integrated into the IA Joint 
        Regional Information Exchange System (JRIES)? How are cyber 
        warnings coordinated between IP National Cyber Security 
        Division and the IA Homeland Security Operations Center?
Answer: CWIN will be technologically and operationally integrated under 
the Homeland Security Information Network (HSIN) umbrella concept under 
the direction of IP/ICD. Within the HSIN network platform, CWIN will 
serve as the highly reliable back-up communications network component 
during crisis. The network is currently in use by selected Federal 
agencies, private industry, and Information Sharing and Analysis 
Centers (ISACs). Additionally, HSIN-Secret will use the CWIN network 
for collaborating collateral level information. DHS will work with the 
states and critical infrastructure sectors to identify nationally 
critical operations centers requiring CWIN connectivity to remain 
connected to DHS during a crisis. The Infrastructure Coordination 
Division (ICD) has created a prioritized implementation list of future 
CWIN sites. A draft Concept of Operations (CONOPs) and Standard 
Operating Procedure (SOP) has already been developed and once approved, 
would govern CWIN protocols and usage of the network.
    JRIES represents a community of users that also sits on the HSIN 
network platform. Consequently, key participants of JRIES may have 
access to CWIN based on whether those JRIES participants meet the 
identified CWIN criteria for membership. The US-CERT, through its HSIN 
web portal, which utilizes JRIES, routinely shares information with the 
HSOC on cyber security issues and alerts, including participation in 
daily conference calls and regular e-mail correspondence. CWIN, as the 
back-up network under the HSIN umbrella could have the capability to 
replicate data from the JRIES tool. In time of crisis when JRIES or 
other forms of communication are inoperable, DHS will continue its 
operations on CWIN. CWIN has extended connectivity to each State's 
emergency operations center (EOC). This was done, in part, to provide 
an interim solution which allows for the transmission of information up 
to the SECRET-level within and between the HSOC and the States' EOCs; 
this capability will be significantly expanded once the Homeland 
Security Data Network (HSDN) is fielded. Under this approach, CWIN 
would serve as the backbone network providing immediate connectivity to 
the States, with HSDN connecting through appropriate encryption devices 
to the state EOC offices.
        <bullet> How does DHS integrate cyber advisories and warnings 
        into the existing Homeland Security Advisory System, given that 
        cyber has a unique audience, particularly when those people who 
        must respond to an attack are not the First Responders used for 
        physical national disasters?
Answer: NCSD provides information for use in the Homeland Security 
Advisory System to be activated as appropriate. However, the nature of 
cyber attacks is that there are varying degrees of cyber activity at 
any given time that warrant advisory to the cyberspace stakeholder 
community that does not meet the criteria for raising the national 
alert status. Therefore, US-CERT utilizes its National Cyber Alert 
System (NCAS) to let the stakeholder community know about activity that 
may warrant information protection measures but that does not rise to 
the national security level of the Homeland Security Advisory System. 
US-CERT is reaching out to key partners for incident response at 
various levels of sensitivity or urgency through the NCAS, the Homeland 
Security Information Network (HSIN)/US-CERT Portal, and the US-CERT 
public website to communicate with cyber ``first responders'' and other 
stakeholders.

9. I would like to have a better understanding of overall coordination 
of exercises within the Department. For example, IAIP has requested 
$1.9 million for cyber exercises in fiscal year 2005. FEMA's budget 
includes $20 million for planning and exercises associated with medical 
surge capabilities. The U.S. Secret Service conducts tabletop 
exercises, but the funding is not clearly identified for this effort.
        <bullet> The Office of Domestic Policy manages a National 
        Exercise Program for counterterrorism in support of Homeland 
        Security Exercises--``TopoffI'' and ``TopoffII.'' TopoffI was 
        conducted under the auspices of the Department of Justice. 
        These exercises were conducted in Seattle and Chicago. TopoffII 
        and subsequent exercises was/will be conducted under the 
        auspices of the Department of Homeland Security (DHS).
        <bullet> The Department of Defense will presently conduct a 
        Homeland Defense exercise titled "Determined Promise '03 and 
        Amalgam Chief 03-13'', This robust command post and field 
        exercise is the precursor/requirement for Northern Command's 
        (NORTHCOM) approval for ``Full Operational Capability (FOC)'' 
        status.
        <bullet> The Secret Service Electronics Crime Unit (ECU) is 
        reaching out to the private sector and supporting table-top 
        exercises to address the security of private infrastructures, 
        These have been extremely successful, as demonstrated during 
        the recent exercise in Houston.
        <bullet> The ``Live Wire'' exercise, sponsored by Dartmouth 
        College, took steps to integrate the private sector into their 
        cyber exercise effort, but there was very poor coordination of 
        the overall exercise.
        <bullet> TSA in coordination with the U.S. Navy War College is 
        also beginning the planning for a series of exercises.

    Throughout all these activities, there appears to have been little 
integration of active private industry/infrastructure into these 
exercises. Who has overall responsibility for coordination, and how are 
exercise results shared with other federal, state, and private 
organizations?
Answer: 
Coordination
    Secretary Ridge directed the establishment of a national exercise 
program following the conclusion of TOPOFF 2. He approved the plan in 
October 2003. The Department's Office for State and Local Government 
Coordination and Preparedness (OSLGCP) administers the Program, and is 
implementing it through coordination across government and by hosting a 
series of planning conferences to facilitate implementation. OSLGCP has 
responsibility on behalf of the Department to work with DHS program 
offices and interagency partners to establish and administer the 
Program, provide policy and program instructions, and monitor, analyze 
and report on the progress of implementation.
    Agencies, departments and offices serve as leads for national-level 
exercises and Program elements that fall within their specific areas of 
responsibility. The Program is designed to support and assist their 
efforts. OSLGCP works closely with participants spanning the 
interagency, all levels of government, the private sector, and 
international audiences, and with other DHS Directorates/Components. 
The Department's Operational Integration Staff coordinates departmental 
participation in national level and senior official exercises. DHS 
Directorates/Components conduct targeted exercises within their areas 
of particular responsibility. For example, the US Coast Guard recently 
conducted the California Spills of National Significance (SONS) 
exercise in April. These exercises are a component of the Coast Guard's 
National Preparedness for Response Exercise Program (PREP) to exercise 
and evaluate government Area Contingency Plans and industry spill 
response plans. OSLGCP and other components of DHS, as well as the 
interagency supported and participated in the exercise, which included 
significant private sector participation.
    The creation of the Department of Homeland Security has greatly 
aided coordinating the inclusion of the private sector and critical 
infrastructure sectors in homeland security exercises by creating the 
Private Sector Office and the Information Analysis & Infrastructure 
Protection Directorate to ensure these partners are included in 
exercises. Past exercises, such as TOPOFF 2, have had extensive private 
sector participation.

Sharing exercise lessons and best practices.
    A major goal of our National Exercise Program, development of a 
national system for collecting, reporting, analyzing, interpreting, and 
disseminating lessons and exemplary practices, was implemented on April 
19th, 2004, when Secretary Ridge and Director Mencer announced the 
establishment of the Lessons Learned Information Sharing (LLIS.gov) 
system. Lessons Learned Information Sharing (LLIS.gov) is the national 
network of Lessons Learned and Best Practices for emergency response 
providers and homeland security officials. It was developed by the 
National Memorial Institute for the Prevention of Terrorism (MIPT), a 
non-profit institution established after the April 1995 bombing of the 
Murrah building in Oklahoma City. LLIS.gov is a secure system. All 
users are verified emergency response providers and homeland security 
officials at the local, state, and federal levels, and the system uses 
strong encryption and active site monitoring to protect all information 
housed on the system. Content is peer-validated by homeland security 
professionals for their peers. LLIS.gov also houses an extensive 
catalog of after-action reports (AARs) from exercises and actual 
incidents as well as an updated list of homeland security exercises, 
events and conferences.
    The Department and its interagency counterparts routinely share 
lessons from sponsored exercises. These are done formally, within the 
Administration and during the course of concept development and 
planning conferences for other exercises. Unclassified lessons learned 
from other agencies' exercises are incorporated into the Lessons 
Learned Information Sharing system.Emergency response providers also 
set a LLIS research agenda and, whenever the priority research topics 
span other government agencies' areas of responsibility, the LLIS Team 
collects pertinent information to inform their research and analysis. 
As an example, published Best Practice series that incorporate lessons 
from HHS exercises include:
        <bullet> Strategic National Stockpile Distribution
        <bullet> Regional Emergency Planning for Healthcare Facilities
        <bullet> Emergency Management Programs for Healthcare 
        Facilities (to include emergency operations plans and hazard 
        vulnerability analyses)
    USNORTHCOM, through its Joint Interagency Coordination Group 
(JIACG), has provided its schedule of homeland defense and civil 
support exercises, which is posted on the Lessons Learned Information 
Sharing system and, through this site, shared with the emergency 
response community. The Lessons Learned Information Sharing research 
team is also working with the Interagency Homeland Air Security 
Steering Group co-chaired by DoD to capture and share lessons learned 
in the aviation security domain.
    The current network of members stands at approximately 3,600 and is 
growing daily. The system is currently populated with hundreds of 
documents. Specifically, since its establishment on April 19, 2004, the 
site contains ten Best Practice series with a total of 87 documents, 57 
Lessons Learned, and 20 Good Stories. To date the site includes almost 
800 documents, 250 AARs, and hundreds of external links, news items, 
and event postings.
    Learned and Good Stories are posted weekly. The original research 
agenda is continually being updated based upon input from the emergency 
response community. Lessons will be captured at all levels (state, 
local, and federal), and documents, events, and news items will be 
identified, formatted, and uploaded constantly. Lessons from DHS-
sponsored exercises are captured in an after-action report analysis 
database. The tool is used to capture problems, positive performance, 
and lessons from DHS/OSLGCP-sponsored exercises by mission, discipline, 
and task.
    Lessons from exercises are an important component in the 
development of state or urban area homeland security strategies, which 
are a key element in both the State Homeland Security and Urban Area 
Security Initiative Grant Programs. DHS/OSLGCP has worked with states 
and urban areas to establish exercise programs and multi-year exercise 
schedules, and requires submission of exercise after action reports. 
States are required to provide OSLGCP with copies of the AAR for all 
exercises conducted with OSLGCP funds. The AARs are analyzed by the 
Lessons Learned Information Sharing program to identify lessons learned 
and best practices that can be shared with other jurisdictions as well 
as to inform grant, exercise, and training programs.
    To notify the first responder community of LLIS.gov's availability, 
both OSLGCP and the LLIS Team has embarked on an ambitious schedule to 
publicize this outstanding resource at numerous conferences, symposia, 
and events. OSLGCP is developing an Information Bulletin on Lessons 
Learned Information Sharing for release to the state and local homeland 
security community. In addition to public outreach events, other media 
have highlighted LLIS, including Aviation Week's Homeland Security & 
Defense (April 14); Federal Computer Week (19 April); ANSER Homeland 
Security Newsletter (25 June); Fire Chief Magazine (28 July); and the 
U.S. Conference of Mayors Newspaper (forthcoming). The website is 
accessible through the Department of Homeland Security Homepage; the 
National Governors Association; National Volunteer Fire Council; 
Association of State and Territorial Health Officials; U.S. Fire 
Administration; PoliceOne.com; Center for State Homeland Security; 
Public Health Foundation; and the International Association of Fire 
Chiefs.
    Efforts to coordinate an effective cyber response capability across 
state and local jurisdictions and economic sectors and with the 
National Exercise Program (NEP) are underway in DHS' National Cyber 
Security Division.
    Although the NEP is the responsibility of the Office of Domestic 
Preparedness (ODP), the NCSD retains overall responsibility for 
planning and execution of adequate cyber security exercises to measure 
and test readiness nationally. The NCSD now has a cyber security 
exercise program manager who works with ODP to schedule cyber-focused 
exercise elements in a manner that poses no undue burden on scarce 
resources including key personnel.
    NCSD's involvement in the NEP is guided by two principles: (1) 
Cyber is only one element of a multifaceted NEP; cyber elements must be 
closely coordinated with other elements of that program to ensure 
efficient use of limited resources and the most effective return on 
exercise investments; (2) Cyber exercise elements must not be sidelined 
or relegated to an ``afterthought'' category within the NEP.
    The federal government cannot by itself defend cyberspace from 
current or future threats. Acknowledging this, NCSD collaborates with 
industry and public-sector stakeholders across the country to define, 
develop, and exercise the major elements of a national cyber-space 
security response system. Its goals for the National Exercise Program 
(NEP) are to:
        1. Sensitize a diverse constituency of private and public-
        sector decision-makers to a variety of potential cyber threats 
        including strategic attack; .
        2. Familiarize this constituency with DHS' concept of a 
        national cyber response system and the importance of their role 
        in it; and
        3. Practice effective collaborative response to a variety of 
        cyber attack scenarios, including crisis decision-making.
        4. Provide an environment for evaluation of inter-agency and 
        inter-sector business processes reliant on information 
        infrastructure.
        5. Measure the progress of ongoing u.S. efforts to defend 
        against an attack.
        6. Foster improved information sharing among government 
        agencies and between government and industry.
        7. Identify new technologies that could provide earlier warning 
        of attacks.
        8. Sort roles and responsibilities of government agencies and 
        industry.
        10. From the creation of the Department of Homeland Security 
        you have quite appropriately described homeland security as a 
        shared responsibility of the public and private sectors, 
        especially since over 85 percent of the nation's critical 
        infrastructure assets are owned and operated by the private 
        sector. In a recent speech commemorating the first anniversary 
        of the Department it included a commitment to:
        Work in greater tandem with the private sector to strengthen 
        vertical communication systems and significantly increase 
        permanent protections around our nation's most vital assets. 
        The goal is to maximize real-time sharing of situational 
        information without delay, and with full throttle distribution 
        of intelligence to those in the field who need to act on it 
        (presentation of Secretary Tom Ridge before the Homeland 
        Security Policy Institute, George Washington University, 
        February 23, 2004).
    Could you describe in greater detail how you intend to accomplish 
this laudable goal and how you intend to include representatives of the 
private sector in the design and implementation of your plans? For 
example, are there any plans to integrate private sector experts into 
your analysis centers, either the HSOC or Cyber Watch Center?
Answer: In 2004, HSOC began the rollout of a national information 
sharing capability that is called the Homeland Security Information 
Network (HSIN). This network connects federal, state, local, tribal and 
private sector infrastructure stakeholders, enabling information 
sharing and collaboration within and among communities of interest. 
HSIN-CI (Critical Infrastructure) is a community of interest within 
HSIN that is dedicated to private sector components of the nation's 
critical infrastructure. A significant portion of the 2005 HSOC budget 
request is planned for growing the infrastructure and the reach of 
HSIN. HSOC is working closely with the Infrastructure Protection 
division of IAIP to identify and reach these private sector 
participants.

     Questions for the Record From the Honorable Sheila Jackson-Lee

    11. Given that the CIA's pre-existing Counter Terrorism Center 
works to fuse information analysis and operations with the input of 
several law enforcement agencies, why channel $865 million in fiscal 
year 2005 funds to the Terrorist Threat integration Center rather than 
channeling funds to the CIA's Center to make it better? Is it not 
possible to accomplish the same goals as with the TIIC with half the 
cost?
Answer: The National Counterterrorism Center (NCTC), formerly the 
Terrorist Threat Integration Center (TIIC), has not received and will 
not be receiving $865 million in fiscal year 2005 funds from either the 
Department of Homeland Security or any other element of the U.S. 
Government.

    12. In this area, the Houston Task Force on Terrorism and its 
medical advisory steering committee are developing efforts to prepare 
for terrorist incidents and making sure that individual institutions 
have the information they need to be prepared.
    The Houston public health and medical community is as well prepared 
as possible to detect and deal with infection by biological weapons. A 
tightly knit group of infectious disease specialists, strong city and 
county health departments and the communicable disease alert system 
(CDAS) help public officials maintain a close eye on the numbers and 
types of illnesses turning up in the area's clinics and emergency 
departments and to communicate this information to the public rapidly. 
This monitoring alerts them to patterns of disease that could be the 
result of bioterrorist activities. Because of refineries in Houston, 
chemical plants and other industries using dangerous materials, the 
city's health community is also well versed in treating individuals who 
have been exposed to life-threatening chemicals and in decontaminating 
patients as well as keeping health care facilities clear of such 
contamination. Already, education on the patterns of illness associated 
with bioterrorism or chemical terrorism is being distributed to 
physicians at the state and local level.
    How does the Fiscal Year 2005 Budget propose to address the state-
by-state disparities in the ability to prepare for bioterrorist attacks 
in hospitals and other medical facilities?
Answer: Under the Homeland Security Act of 2002 and Homeland Security 
Presidential Directive (HSPD)-7, the Department of Homeland Security 
(DHS) is responsible for leading, integrating, and coordinating 
implementation efforts among federal departments and agencies, state 
and local governments, and the private sector to protect United States 
critical infrastructure and key resources. HSPD-7 designates Sector-
Specific Agencies responsible for infrastructure protection activities 
in a designated critical infrastructure sector, including conducting or 
facilitating vulnerability assessments and encouraging risk management 
strategies to protect against and mitigate the effects of attacks 
against critical infrastructure. The Department of Health and Human 
Services is the Sector-Specific Agency for the public health, 
healthcare and food (other than meat, poultry and egg products) 
sectors, and as such would be responsible for collaborating with the 
aforementioned entities to encourage risk management strategies for 
hospitals and other medical facilities.

13. The need to fund improved threat assessment programs and to hire 
technical analysts to aid individual states and local areas can be 
found in Houston's drinking water vulnerability. Two-thirds of the 
drinking water provided to Houston residents comes from the San Jacinto 
and Trinity Rivers. These rivers are very vulnerable to pathogen and 
pesticide pollution, among other things. Houston's ``Right-to-Know 
Report'' earned a grade of ``Poor'' for 2000 and ``Fair'' for 2001. 
This report included a need for more prominent placement of the 
mandatory special alert for people who are more vulnerable to 
particular contaminants. The 2000 report provided a prominent and 
incorrect description of arsenic's health threat, and both reports 
offered misleading information about Cryptosporidium, which has been 
found in Houston's source water.
    Our distinguished panelist indicates in his testimony that the 
President, in his Fiscal Year 2005 Budget, requests $11 million to fund 
a new biosurveillance initiative that purports to provide for 
``realtime integration of biosurveillance data. Will the IAIP suggest 
to the Department that part of these funds go to helping individual 
states to strengthen their threat assessment for bioterrorism?
Answer: As part of the larger Biosurveillance Initiative, the IAIP 
budget request of $11M is for the development of biosurveillance 
information integration capabilities that will provide improved early 
detection and characterization of bio-threats or developing disease 
events that may endanger our nation. Specifically, the National Bio-
surveillance Integration System (NBIS) is an integrated geographic 
information assessment and response system for collecting, monitoring, 
and evaluating clinical and non-clinical biological threat information 
and reporting data streams from government and the private sector.
    This NBIS system will leverage existing, emergent and future 
disease surveillance and detection systems, current Federal Department 
and agency capabilities, and other current state, industry and 
international disease surveillance and reporting capabilities. DHS has 
been working closely with Federal partners such as USDA, HHS, and EPA 
during the NBIS design phase--their existing biosurveillance 
capabilities are essential system components. DHS will continue to rely 
on those partners' subject matter and technical expertise and input 
throughout the development and implementation phases.
    The $11M for biosurveillance also includes development of the 
National Bio-surveillance Integration Center (NBIC), which will 
facilitate real time analysis of disease and contamination events. The 
NBIC will provide National leadership with improved situational 
awareness of emergent biological events and will integrate various data 
streams from Federal partner agencies, States, and industry into a 
focused and refined status monitoring information stream.
    Mature, integrated bio-surveillance systems will provide for the 
Federal and State Governments to effectively attribute bio-terrorism 
events and implement appropriate prevention, intervention and 
mitigation strategies, thereby enhancing the nation's ability to 
provide a coordinated, controlled, focused and measured national 
response to bio incidents.
    Budgetary allotments for biosurveillance within IAIP will enable 
DHS to stand up NBIS functionality and establish the fusion capability 
for various bio-surveillance data streams. IAIP does not intend to use 
NBIS funding for bioterrorism assessments at the state level. 
Individual states have authority under the 2005 State Homeland Security 
Strategy Guidance to spend Fiscal Year 2005 Homeland Security Grant 
Program funds specifically for the purposes of bioterrorism threat 
assessments, if it fits into their homeland security strategy.

14. DHS Chemical Security Activities
    In your testimony, you note that your Directorate has assisted in 
the conduct of vulnerability assessments and implementation of 
protective measures at many of the nation's highest risk chemical 
sites, thereby improving the safety of over 13 million Americans.
    Secretary Libutti, can you tell me what exactly the Department has 
done to improve chemical security?
Answer: The Office of Infrastructure Protection (IP), part of the 
Information Analysis and Infrastructure Protection (IAIP) Directorate, 
uses a risk management process to develop and implement community-based 
security improvements around Critical Infrastructure and Key Resources 
(CI/KR) of greatest concern. IP maps threat information directly to 
identified vulnerabilities within and across sector segments. The 
process involves the identification of critical infrastructure and then 
the identification and assessment of vulnerabilities at those 
facilities and in the surrounding communities.
    In the case of chemical sites, IP utilized the EPA RMP data as a 
starting point as part of a ``worst-case'' scenario modeling analysis 
to determine potential impacts of a terrorist attack. Using this 
conservative analysis, IP refined the methodology of the EPA 
consequence model, yielding results applicable to terrorist attack and 
not emergency preparedness. This led DHS to determine that there is 
only one chemical facility in the country that could impact over I 
million people, nearly 300 that could impact over 50,000 people, and 
roughly 3,800 facilities that could impact over 1,000 people. IP is 
concentrating efforts in fiscal year 2004 on those facilities that pose 
the greatest risk--the facilities that could potentially impact over 
50,000 people.
    Once these facilities are detected, vulnerabilities are then 
identified through Site Assistance Visits (SAVs). Over 30 SAVs have 
been conducted at chemical facilities so far this fiscal year to assist 
owners and local law enforcement officials in the identification of 
vulnerabilities and to facilitate mitigation option discussions. Owners 
and operators have independently implemented many of the protective 
measures identified in SAVs.
    Using the information obtained during SAVs, as well as other 
sources of information, IP has also developed tools to bolster the 
physical security of chemical facilities. The first of these tools are 
Characteristic and Common Vulnerabilities (CCVs) reports. These CCVs 
concentrate on specific elements of critical infrastructure by 
providing specialized, sector-based information to help owners and 
operators bolster physical protection. By identifying common 
vulnerabilities in storage, refrigeration, or distribution related to 
the chemical industry, DHS can advise owners and operators how to 
better protect their facilities.
    Further utilizing this sector-based approach, IP has also developed 
Potential Indicators of Terrorist Activity (PITAs) reports. PITAs call 
attention to terrorist surveillance, training, planning, preparation, 
or mobilization activities that may precede a terrorist attack, 
identifying both generic terrorist-related activates and those unique 
to each particular sector. The chemical sector PITA identifies 
potential surveillance techniques and local and regional indicators 
unique to the chemical sector that can alert facility operators to 
suspicious activities that may precede a terrorist attack.
    Vulnerabilities are not only identified within chemical facilities; 
IP is facilitating the preparation and implementation of Buffer Zone 
Protection Plans (BZPP) within the chemical sector. The purpose of a 
BZPP is to identify protective measures around a specific facility that 
make it more difficult for terrorists to stage and launch a successful 
attack from the immediate vicinity of CI/KR. IP provides technical and 
material assistance to Local Law Enforcement (LLE) to mitigate 
vulnerabilities identified in the BZPP, effectively reducing 
vulnerabilities at the specific chemical site and building the general 
protection capacity of the community. Buffer zone plans provide 
scalable protective actions implemented in concert with changes in the 
Homeland Security Advisory System or as otherwise required, and are 
designed to provide an increased security posture.
    Finally, to secure specific high-risk facilities better, a pilot 
Webcam program is being implemented at 13 high-risk chemical 
facilities. This equipment will help augment the overall security 
capability of these sites by providing 24-hour perimeter surveillance 
of established buffer zones. This information will be fed to LLE 
agencies and the Department, who will have the added capability of 
monitoring these sites continuously. All 13 high-risk chemical 
facilities are scheduled to have Webcam monitoring installed by 
September 30, 2004.
    Last Tuesday, the President again called for the passage of 
comprehensive chemical security legislation. Can you tell us what that 
legislation will allow you to in terms of improving security that you 
cannot do now?
Answer: Regarding the Chemical Sector:
    DHS continues to work with Congress on legislation to facilitate 
the protection of our Nation's chemical facilities, while considering 
the legitimate concerns of the private sector. However, we are not 
waiting for legislation. DHS has developed an effective working 
relationship with our private sector partners, and we are seeing good 
results and an increase in protection coming out of that developing 
partnership.
    DHS has worked to accurately identify key assets, and to estimate 
their respective vulnerabilities.
        <bullet> Using the EPA's Risk Management Program (RMP) database 
        as a point of departure, DHS has estimated actual consequences 
        of a successful attack on certain key assets. Our focus is on 
        the potential impacts of terrorist attacks, so that protective 
        actions can be prioritized at a Federal level. We have also 
        done a basic evaluation of the chemical sector as a system (to 
        the degree we have data available for such an assessment), so 
        as to identify the most hazardous or highest-risk sites, again 
        to support prioritization at a Federal level, and also to 
        support the decision-making processes of the State Homeland 
        Security Advisors. This analysis included:
                <bullet> Reviewing reported RMP status (materials held 
                and quantities by vessel);
                <bullet> Reviewing the population density in the 
                vicinity of above-threshold (RMP) quantities of 
                selected hazardous chemicals;
                <bullet> Evaluating possible impacts of intentional 
                attack instead of the accidental release model used in 
                safety programs;
                <bullet> Factoring RMP effected population estimates 
                from a circle to a wedge, producing a rough estimate of 
                actual, potential effected persons; and 
                <bullet> Modified plume modeling for more detailed 
                effects prediction (where such modeling was deemed 
                necessary to revise/validate estimates)
        <bullet> To date, the Department's protective measures have 
        been threat-based, focusing risk management efforts on the 
        sites of greatest immediate concern. While the Department 
        continues to work with our state, local and industry partners 
        to refine the list of chemical sites, roughly 3,800 facilities 
        that could impact over 1,000 people and nearly 300 facilities 
        that could impact 50,000 or more people, and one facility that 
        could impact over 1 million people have been identified. To 
        date, DHS officials have visited more than 150 of the more than 
        300 chemical, petrochemical and related sites of greatest 
        concern. The Department continues to visit these facilities on 
        a priority basis.
        <bullet> Going forward, these threat- based actions will be 
        coupled with vulnerability reduction programs that will more 
        systematically identify and develop best practices across the 
        entire chemical sector, relating to the development and 
        implementation of protective programs. Beyond the fence line of 
        a specific plant, DHS continues its aggressive program to 
        integrate community assets into the overall security posture of 
        the chemical infrastructure. This effort includes both the 
        Buffer Zone Protection Program, and a variety of educational, 
        outreach, and coordination programs now in operation. The 
        Chemical Sector-Specific Plan (an annex to the National 
        Infrastructure Protection Plan that is scheduled to be 
        available in December 2004) outlines many of these longer-term, 
        more strategic initiatives.
    Another major focus of the Department has been the development of 
guidelines, increased preparedness of law enforcement and first 
responders, and the implementation of protective measures at and around 
select chemical sites.
        <bullet> Site visits are also conducted with chemical 
        facilities as part of Buffer Zone Protection Plans (BZPPs). 
        BZPPs are local efforts that contribute to reducing specific 
        vulnerabilities by developing protective measures that extend 
        from the critical infrastructure site to the surrounding 
        community to deny terrorists an operational environment. The 
        Department works in collaboration with state, local, and tribal 
        entities by providing training workshops, seminars, technical 
        assistance and a common template to standardize the BZPP 
        development process. Local law enforcement takes a lead role in 
        protecting its community as they are most familiar with the 
        operational environment. To date, 65 plans developed by local 
        law enforcement officials for chemical facilities have been 
        submitted to the Department via State Homeland Security 
        Advisors.
        <bullet> As part of the protective buffer zone effort, web-
        based cameras are being installed at the 12 potentially 
        highest-risk chemical facilities. The web cams will aid 
        facility personnel and local law enforcement officials in 
        detecting and deterring surveillance and other terrorist 
        activities. Each site and local law enforcement officials will 
        have access to the web cams.Additionally, the Homeland Security 
        Operations Center (HSOC) at the Department's headquarters will 
        also have access in order to create a real-time picture of the 
        operating environment.
        <bullet> The Department has also recently awarded five 
        contracts for the development of next generation chemical 
        sensors for both indoor and outdoor use. These sensors will be 
        used in part to give immediate warning to areas surrounding 
        chemical facilities in the event of an incident, whether 
        intentional or accidental.
        <bullet> All 2,040 member plants of the American Chemistry 
        Council, as well as the entire membership of the Synthetic 
        Organic Chemical Manufacturer's Association, and several other 
        chemical industry trade associations, will have implemented 
        strict voluntary security measures by the end of 2004. These 
        Responsible Care  companies have made great strides in 
        improving security throughout the industry, and up and down the 
        value chain. DHS continues to work closely with industry groups 
        in order to develop security-oriented screening tools, 
        assessment tools, best practices, and other processes to 
        improve both our understanding of risk and vulnerability, and 
        to improve our security on a site by site and infrastructure-
        wide basis.
    DHS has also made major efforts in sharing information with law 
enforcement and the private sector.
        <bullet> DHS is establishing or enhancing sector-specific 
        information sharing and coordinating mechanisms for all of the 
        17 CI/KR sectors, incorporating both Information Sharing and 
        Analysis Centers (ISACs) and Sector Coordinating Councils 
        (SCCs). These entities have dual roles in that they serve as 
        central points of infonnation sharing within each of the 
        sectors and also act as the liaison to the federal government. 
        Their main functions are to funnel threat information to 
        facilities and receive and collect information from facilities. 
        The Chemical Sector ISAC has supported Homeland Security's 
        information sharing efforts since the Department's inception 
        and includes over 600 individuals representing more than 430 
        different chemical companies.
        <bullet> The Chemical Sector ISAC utilizes CHEMTREC, the 
        chemical industry's 24-hour emergency communication center as 
        the communication link between the Department and ISAC 
        participants. When CHEMTREC receives information from DHS, that 
        information is immediately transmitted, on an around-the-clock 
        basis, to Chemical Sector ISAC participants utilizing 
        electronic mail and a secure website.
        <bullet> The Department introduced the Homeland Security 
        Information Network (HSIN) on February 24, 2004, a real-time 
        counter terrorism communications network currently connected to 
        all 50 states, territories, and District of Columbia, as well 
        as more than 50 major cities and urban areas. This program 
        significantly strengthens the two-way flow of real-time threat 
        information at the Sensitive-but-Unclassified level between the 
        State, local, tribal, and private sector partners. By the end 
        of this year, information at the SECRET level will be able to 
        be shared with HSIN users.
        <bullet> The Homeland Security Information Network initiative 
        was expanded to include critical infrastructure owners and 
        operators and the private sector in 13 states centered on the 
        Dallas, Seattle, Indianapolis and Atlanta regions. The Homeland 
        Security Information Network-Critical Infrastructure (HSIN-CI) 
        Pilot Program is an unclassified network, which immediately 
        provides the Department's Homeland Security Operations Center 
        (HSOC) with one-stop, 24/7 access to a broad spectrum of 
        industries, agencies and critical infrastructure across both 
        the public and private sectors, including chemical facilities. 
        This conduit for two-way information sharing provides the 
        Department with an expanding base of locally knowledgeable 
        experts and delivers real-time access to critical information. 
        To date, HSIN-CI communicates with nearly 40,000 members.

The key to preparedness is educating law enforcement and private 
entities.
        - Information derived from Site Assistance Visits (SAVs) are 
        used to create two series of sector specific reports that are 
        disseminated to owners, operators, security planners and local 
        law enforcement officials to integrate into their respective 
        risk management processes. The Common Characteristics and 
        Vulnerabilities (CV) reports highlight common issues across 
        chemical facilities so that relevant stakeholders can address 
        possible vulnerabilities and improve overall site security. 
        Potential Indicators of Terrorist Attack (PI) reports give 
        further insight to owners, operators, and law enforcement 
        official on how to better protect chemical facilities and, in 
        turn, thousands of Americans in the surrounding communities.
        <bullet> DHS has provided Buffer Zone Protection Plan workshops 
        to state and local law enforcement officials in many cities who 
        have chemical plants in their areas.

60 Minutes Report
    Last November, the television program 60 Minutes reported it had 
examined security at 50 plants across the country and it had found 
widespread security gaps, including unlocked and open gates, 
dilapidated fences, absent guards, and easy access to containers 
storing tons of toxic chemicals.
    Has DHS approached 60 Minutes to find out what they found and which 
plants had which deficiency?
Answer: DHS has not approached 60 Minutes to discuss their reporting on 
chemical plant security. While we work closely with the media in many 
areas, operational readiness is one which we treat seriously and do not 
want to create journalist conflicts.
    Has DHS worked with any of these plants noted in this and other 
reports, such as
        a. Neville Chemical Plant in Pittsburgh (33,000 people 
        potentially effected)
        b. The Univar plant in Forward, Pennsylvania (1.2 million 
        people potentially effected)
        c. Millenium Chemical Company in Baltimore (> 1 million people 
        potentially effected)?
Answer: As described in QO1927, DHS utilizes a risk management process 
to map threat to vulnerabilities and uses a tiered approach to address 
facilities of greatest concern first. An assessment, including a Buffer 
Zone Protection Plan (BZPP), was conducted for the Neville Chemical 
Plant facility in conjunction with state and local law enforcement 
officials, security planners and the owners/operators. As the Sector 
Specific Agency (SSA) responsible for the chemical sector, DHS is 
developing a Sector Specific Plan (SSP) as part of the National 
Infrastructure Protection Plan (NIPP) in accordance with HSPD-7. The 
SSP for the chemical sector addresses the various types of facilities 
that could pose a threat to surrounding communities and builds on 
current activity being conducted by DHS to further protect chemical 
facilities.

    15. Role of EPA
    Reversing the principle outlined in National Strategy on Homeland 
Security, Homeland Security Presidential Directive-7 transferred 
responsibility for chemical plant security from the EPA to your 
Directorate at DHS. Last week, the White House reportedly forbade 
representatives from EPA from attending a hearing by the House 
Committee on Government Reform on the topic of chemical security. 
However, EPA already regulates the chemical industry for accidental, 
worker safety, and environmental protection issues.
    Mr. Secretary, can you explain to us the logic behind removing EPA 
from the responsibility for chemical sector security?
    Even though DHS has assumed responsibility for the chemical sector, 
the Department closely collaborates with the EPA in the protection of 
it. The close working relationship between the two agencies ensures 
that safety and security concerns are both addressed, taking advantage 
of both DHS and EPA's expertise in this area.
    Are you working with EPA to can you assure us that facilities are 
not being overburdened by excessive or duplicative government 
interference or direction?
Answer: Yes. While DHS is tasked to secure these facilities, it must 
work closely with all other federal agencies to provide a strong 
security posture. For example, the Environment Protection Agency (EPA) 
has the mission to protect human health and the environment and to the 
degree it successfully monitors the safety and environmental compliance 
of these facilities, EPA contributes to the overall security posture of 
chemical facilities.
    Furthermore, DHS and the EPA are working together on overarching 
national protection strategy documents, such as the forthcoming 
National Response Plan (NRP), which will serve as the primary document 
to guide domestic incident management, and the National Infrastructure 
Protection Plan (NIPP), which will provide a ``roadmap'' for protecting 
the nation's CI/KR and delineate roles and responsibilities to do so. 
This collaboration will continue to help ensure that our nation's 
chemical facilities are safe and secure without excessive government 
interference.

Synergistic Security Strategies
    In considering a potential terrorist attack on a chemical facility, 
one should assume the intent of the attack is to cause a catastrophic 
release of toxic chemicals because this would pose the biggest risk to 
the public and is likely to cause the most fear. Given that avoiding 
the release of toxic chemicals is already the focus of most all 
accident, safety and environmental regulations, strategies, best 
practices, and technologies common to the industry, is DHS attempting 
at all to leverage these approaches to effect security improvements?
Answer: Yes. DHS seeks to bolster chemical facility security, not 
complicate it with unnecessary and time-consuming revisions. DHS' 
security and counterterrorism efforts that focus on protecting against 
malicious attacks are leveraged against EPA's ongoing efforts to 
prevent non-malicious accidents. Additionally, the private sector 
continues to develop and implement new technologies and best practices 
related to safety and security. The coordinated efforts of these three 
are required to best protect America.

        Questions for the Record From The Hon. James R. Langevin

    As you know, much work has been done at the state level to identify 
and prioritize critical infrastructure, and I know that my state of 
Rhode Island has worked hard to develop such a list. I also know that 
at the federal level, a comprehensive and prioritized list of critical 
infrastructure is still lacking. It seems to make sense that DHS should 
be taking advantage of the work already done by the states in this 
area.

    16. Can you explain what information DHS has collected from states 
and the private sector regarding risk assessments and describe how it 
is being used by DHS to build a priority list? Is there a formal 
procedure for collecting and sharing this information, or is it a more 
informal or voluntarily process based on the initiative of individual 
states? If there is a formal process in place, who is responsible for 
collecting the information, how is it done, and how is it used?
Answer: The Department is encouraged by the progress states and the 
private sector has made in examining vulnerabilities in their 
communities. DHS utilizes a variety of informal avenues to collect 
information from the states and private sector entities as part of our 
national protective strategy. This includes tapping into the networks 
created by Information Sharing and Analysis Centers (ISACs) and 
relationships with private sector associations.
    More formally, DHS collects vulnerability assessments and security 
plans via the US Coast Guard and Transportation Security Administration 
(TSA). Information is also collected in collaboration with local law 
enforcement officials and facility owners and operators through Site 
Assistance Visits (SAVs) and Buffer Zone Protection Plans (BZPPs). 
Another source of information is outreach conducted by sector specific 
agencies in accordance with HSPD-7.
    Additionally, on July 19, 2004 states and localities were asked to 
participate in a data call intended to collect site information to 
further populate the National Asset Database (NADB), a growing registry 
of critical infrastructure and key resources (CI/KR). Information from 
all of these sources aids DHS to map threat information to 
vulnerabilities so protective programs can be prioritized.

                                 <all>

</pre></body></html>
